No. ______________

IN THE
SUPREME COURT OF THE UNITED STATES
_______________
Thomas A. Woods,
Petitioner,
v.
Nelson Alves, Superintendent,
Respondent
_______________
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the First Circuit
_______________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
_______________
Myles D. Jacobson
Counsel of Record
46 Birch Hill Road
Northampton, MA 01062
(413) 531-2175
mylesdj@gmail.com
September 10, 2021

TABLE OF CONTENTS
APPENDIX
Opinion of the United States Court of Appeals for the First Circuit, Woods v. Medeiros, 993 F.3d
39 (1st Cir. 2021), aff’g 465 F.Supp.3d 1 (D. Mass. 2020). ………………………….. 1a
Opinion of the United States District Court for the District of Massachusetts, Woods v.
Medeiros, 465 F.Supp.3d 1 (D. Mass. 2020). ……………….……..………………… 14a
Order of the United States Court of Appeals for the First Circuit Denying Appellant Thomas A.
Woods’s Petition for Rehearing, No. 20-1664 (Apr. 26, 2021). …..………………... 50a
Opinion of the Massachusetts Supreme Judicial Court, Commonwealth v. Woods, 480 Mass.
231, 102 N.E.3d 961 (2018), cert. denied, 139 S.Ct. 649 (2018) (Woods II). ………. 51a
Memorandum of Decision on Defendant’s Motion for New Trial, Commonwealth v. Woods,
No. 0683CR498. …………………….……………………..……………………….. 57a
Opinion of the Massachusetts Supreme Judicial Court, Commonwealth v. Woods, 466 Mass.
707, 1 N.E.3d 762 (2014), cert. denied, 573 U.S. 937, 134 S.Ct. 2855 (2014) (Woods I).
………………………………………………………………..……………………….. 65a
Oral Findings and Rulings by Trial Judge on Defendant’s Motions in Limine, Commonwealth v.
Woods, No. PLCR2006-00498 (May 6, 2009). ……………………………………… 76a
Plymouth County Grand Jury Summons Issued to Thomas A. Woods. ……………………... 84a
28 U.S.C. § 2254 (a)–(e). …………………………………………………………………….. 85a

Case: 20-1664

Document: 00117727420

Page: 1

Date Filed: 04/08/2021

Entry ID: 6414499

United States Court of Appeals
For the First Circuit

No. 20-1664
THOMAS WOODS,
Petitioner, Appellant,
v.
SEAN MEDEIROS, Superintendent,
Respondent, Appellee.
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. William G. Young, U.S. District Judge]
Before
Lynch, Selya, and Kayatta,
Circuit Judges.
Myles Jacobson for appellant.
Abrisham Eshghi, Assistant Attorney General, with whom Maura
Healey, Attorney General of Massachusetts, was on brief, for
appellee.
April 8, 2021

D

Case: 20-1664

Document: 00117727420

Page: 2

.$<$77$, &LUFXLW-XGJH.

Date Filed: 04/08/2021

Entry ID: 6414499

Thomas Woods has petitioned for

a writ of habeas corpus pursuant to 28 U.S.C. § 2254, seeking to
vacate his Massachusetts conviction for murder in the first degree.
Woods argues that his rights under the Fifth Amendment to the
United States Constitution were violated when the prosecution
introduced at trial the testimony that Woods had given to a grand
jury

without

being

incrimination.

His

advised

of

unwarned

his

privilege

testimony

was

against

self-

inadmissible,

he

argues, because he was a target of the grand jury's investigation
when he appeared as a witness.

The Massachusetts Supreme Judicial

Court denied relief when Woods presented this argument in his
challenge to his conviction on direct appeal, Commonwealth v. Woods
(Woods I), 1 N.E.3d 762, 770–72 (Mass. 2014), and in his challenge
to the denial of his motion for a new trial, Commonwealth v. Woods
(Woods II),

102

N.E.3d

961,

966–68

(Mass.

2018).

Woods

subsequently presented the same argument in a federal habeas
petition, which the district court denied.
F. Supp. 3d 1, 12–16 (D. Mass. 2020).

Woods v. Medeiros, 465

For the reasons that follow,

we affirm.
,
We rely on the SJC's opinions in Woods I and Woods II to
summarize the record compiled in the state court.

See Gomes v.

Silva, 958 F.3d 12, 16 (1st Cir. 2020) ("[W]hen we consider a state
conviction on habeas review, we presume the state court's factual
- 2 -

D

Case: 20-1664

Document: 00117727420

Page: 3

Date Filed: 04/08/2021

Entry ID: 6414499

findings to be correct." (alteration in original) (quoting Dorisca
v.

Marchilli,

941

F.3d

12,

14

(1st

Cir.

2019)));

28

U.S.C.

§ 2254(e)(1).
Woods and Paul Mullen were friends and street-level
marijuana dealers.

Woods I, 1 N.E.3d at 765.

Their relationship

became strained when Mullen became indebted to Woods.

Id.

On

several occasions, Woods said to Mullen and others that he would
shoot Mullen if Mullen failed to repay.

Id.

Early in the morning on December 2, 2005, Woods and
Mullen agreed to meet at a gas station in Brockton, Massachusetts,
to smoke marijuana.

Id. at 764, 766.

asked Mullen to sit in Woods's car.

When Mullen arrived, Woods

Id. at 766.

After Woods went

inside the gas station, two men approached the car, and one of
them shot Mullen eight times, killing him.

Id. at 766, 768.

Following the shooting, Woods returned to his car, put Mullen's
body on the ground, and drove to Woods's girlfriend's house.
at 766.

Id.

Later, outside of his girlfriend's house, Woods was seen

talking to a man similar in description to the shooter.

See id.

at 766–67.
Woods spoke to the police about Mullen's death during
noncustodial interviews on December 2, 2005, and on February 6,
2006.

See id. at 767.

On February 10, 2006, after receiving a

summons to appear, Woods testified before the grand jury as a
witness.

Id.

In

relevant

part,
- 3 -

he

admitted

that

he

knew

D

Case: 20-1664

Document: 00117727420

Page: 4

Date Filed: 04/08/2021

Entry ID: 6414499

beforehand that Mullen was coming to the gas station to smoke
marijuana and that, minutes before the shooting, he suggested that
Mullen sit in Woods's car.

In October 2006, the grand jury

returned an indictment charging Woods with murder in the first
degree.

Woods II, 102 N.E.3d at 962–63.
Woods filed a motion in limine to exclude his grand jury

testimony.

He argued that the testimony's admission would violate

his Fifth Amendment right against compelled self-incrimination
because he was a target of the grand jury's investigation when he
was commanded to testify and he was not advised that he could
refuse to answer questions if his answers might tend to incriminate
him.

Id.

at

963–64;

see

also

U.S.

Const.

amend. V.

The

prosecution contended that there was no constitutional barrier to
introducing the testimony because, at the time he testified, Woods
was

not

a

target

but

a

mere

"person

of

interest"

due

to

inconsistencies in the statements he made during his two police
interviews.

Woods II, 102 N.E.3d at 964.

The trial judge denied

Woods's motion, finding that Woods was not a target when he
appeared before the grand jury and that he testified freely and
voluntarily.

Id. at 964–65.

The court later admitted Woods's grand jury testimony
into evidence at trial, Woods I, 1 N.E.3d at 767; the jury found
Woods guilty of murder in the first degree, id. at 764; and Woods
was sentenced to life in prison, id.
- 4 -

D

Case: 20-1664

Document: 00117727420

Page: 5

Date Filed: 04/08/2021

Entry ID: 6414499

On direct appeal, Woods raised "the question of whether
the grand jury testimony (obtained by subpoena) of a subject of
the grand jury investigation could have been used at trial against
the witness if there had been no notice of the witness' right not
to answer where the answer would be self-incriminating."

He asked

the SJC to resolve that question in his favor, either by holding
that

the

testimony's

admission

violated

his

federal

and

Massachusetts constitutional rights against self-incrimination or
by exercising its supervisory powers to suppress the testimony.
The SJC affirmed Woods's conviction.

It found "no error

in the judge's ruling that the defendant was not a target, and
that the prosecutor was not required to advise him of his Fifth
Amendment rights before eliciting his testimony."

Id. at 770.

The SJC "first review[ed] the judge's finding that the defendant
was not a target" when he appeared before the grand jury.

Id.

The SJC accepted the trial judge's conclusion based on record
evidence indicating that, when Woods testified, he was "somebody
that was very interesting" to the police but was not a "suspect."
Id. at 770–71.
Notwithstanding its affirmance of the finding that Woods
was not a target when he appeared before the grand jury, the SJC
proceeded to consider as well Woods's "separate argument that the
Commonwealth must advise targets or potential targets of the grand
jury's

investigation

of

their
- 5 -

right

not

to

incriminate

D

Case: 20-1664

Document: 00117727420

themselves."

Id. at 771.

Page: 6

Date Filed: 04/08/2021

Entry ID: 6414499

In so doing, the SJC stated that the

Supreme Court "has never determined 'whether any Fifth Amendment
warnings whatever are constitutionally required for grand jury
witnesses.'"
F.2d

301,

Id. (quoting United States v. Pacheco-Ortiz, 889

307

(1st

Cir.

1989));

see

Washington, 431 U.S. 181, 186 (1977).

also

United

States

v.

The SJC did, nevertheless,

promulgate a new supervisory rule that
where, at the time a person appears to testify
before a grand jury, the prosecutor has reason
to believe that the witness is either a
"target" or is likely to become one, the
witness must be advised, before testifying,
that (1) he or she may refuse to answer any
question if a truthful answer would tend to
incriminate the witness, and (2) anything that
he or she does say may be used against the
witness in a subsequent legal proceeding.
Id. at 772 (footnote omitted).

The rule's purpose, the SJC

explained, was "to discourage the Commonwealth from identifying a
person as a likely participant in the crime under investigation,
compelling his or her appearance and testimony at the grand jury
without adequate warnings, and then using that testimony in a
criminal trial."

Id.

The SJC made clear that the rule was "not

a new constitutional rule, but rather an exercise of our power of
superintendence 'to regulate the presentation of evidence in court
proceedings.'"

Id. (quoting Commonwealth v. Dagley, 816 N.E.2d

527, 533 (Mass. 2004)).

And the court explained that the rule

- 6 -

D

Case: 20-1664

Document: 00117727420

Page: 7

Date Filed: 04/08/2021

Entry ID: 6414499

would only apply "prospectively to grand jury testimony elicited
after the issuance of the rescript in this case."

Id.

Woods next moved for a new trial, arguing that evidence
not presented to the trial judge showed that Woods was indeed a
target when he testified.

Woods II, 102 N.E.3d at 965.

Although

this evidence persuaded the motion judge that Woods was "a target
or potential target," the motion judge denied relief, reasoning
that Woods I's holding "was not dependent on the factual finding
that [Woods] was not a target of the investigation."
Woods appealed again to the SJC.

Id. at 966.

Woods noted that he

had argued on direct appeal that his federal and Massachusetts
constitutional rights "were violated when his un-warned (as to
self-incrimination rights) grand jury testimony was introduced
against him at trial."

According to Woods, "the SJC failed to

address the merits" of this claim in Woods I, and he attributed
this failure to the SJC's acceptance of the trial judge's finding
that he had not been a target when he appeared before the grand
jury.

Pointing to the motion judge's later finding that Woods was

in fact a "target or potential target" when he testified, Woods
urged the SJC to "reach and resolve" the Fifth Amendment and
Massachusetts constitutional questions regarding his testimony's
admission.
The SJC affirmed the denial of Woods's motion for a new
trial.

The court described Woods's argument on direct appeal as
- 7 -

D

Case: 20-1664

Document: 00117727420

Page: 8

Date Filed: 04/08/2021

Entry ID: 6414499

an "objection to the introduction of his grand jury testimony"
based

on

his

federal

and

Massachusetts

against compelled self-incrimination.

constitutional

Id. at 965.

rights

Woods II

explained that the SJC's prior opinion had "rejected the argument
that self-incrimination warnings were legally required at the
time, thus upholding the trial judge's denial of the defendant's
motion in limine."

Id.

The SJC held that the new evidence

presented on collateral appeal did not warrant a new trial because
"this court's decision in Woods I upholding the admission of the
defendant's grand jury testimony did not depend on the factual
finding that the defendant was not a target of the investigation."
Id. at 966.
Woods filed a petition for a writ of habeas corpus
raising several claims, including that his Fifth Amendment rights
were violated by the admission of his grand jury testimony.

The

district court denied the petition, see Woods v. Medeiros, 465 F.
Supp. 3d at 18, and granted Woods a certificate of appealability
with respect to his Fifth Amendment claim.

This appeal followed.

,,
We review de novo the district court's denial of a
petition for a writ of habeas corpus.
F.3d 112, 121 (1st Cir. 2016).

See Linton v. Saba, 812

Like the district court, we must

afford significant deference to the SJC's decision under most
circumstances.

See Lucien v. Spencer, 871 F.3d 117, 122 (1st Cir.
- 8 -

D

Case: 20-1664

2017).

Document: 00117727420

Page: 9

Date Filed: 04/08/2021

Entry ID: 6414499

When the SJC has addressed a petitioner's federal claim on

the merits, the Antiterrorism and Effective Death Penalty Act
(AEDPA) permits a federal court considering a habeas petition to
grant it in only two circumstances:

(1) if the SJC's decision

"was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court
of the United States," 28 U.S.C. § 2254(d)(1), or (2) if the
decision on the federal claim was "based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding," id. § 2254(d)(2).

But if the SJC has

not addressed the petitioner's federal claim on the merits though
the claim was properly presented to it, we review the claim de
novo.

See Jenkins v. Bergeron, 824 F.3d 148, 152 (1st Cir. 2016).
The Supreme Court has explained that "[w]hen a federal

claim has been presented to a state court and the state court has
denied relief," we may "presume[] that the state court adjudicated
the claim on the merits in the absence of any indication or statelaw procedural principles to the contrary." Harrington v. Richter,
562 U.S. 86, 99 (2011) (presuming adjudication on the merits when
the state court summarily rejects all of a defendant's claims);
see also Johnson v. Williams, 568 U.S. 289, 301 (2013) (applying
the same presumption when a state court opinion "rejects a federal
claim

without

expressly

addressing

that

claim").

This

"presumption may be overcome when there is reason to think some
- 9 -

D

Case: 20-1664

Document: 00117727420

Page: 10

Date Filed: 04/08/2021

Entry ID: 6414499

other explanation for the state court's decision is more likely."
Richter, 562 U.S. at 99–100.
Woods argues that the SJC never actually addressed his
properly

presented

and

precise

constitutional

argument.

Alternatively, he argues that to the extent the SJC addressed his
constitutional argument, it did so only on the assumption that he
was not a target of the grand jury investigation when called to
testify.

We find neither argument persuasive.
In Woods I, the SJC acknowledged that Woods was claiming

constitutional error in the admission of his grand jury testimony.
1 N.E.3d at 770 ("The defendant argues that, at the time of his
testimony

before

the

grand

jury,

he

was

a

target

of

the

investigation and the Commonwealth was thus required to advise him
of his Fifth Amendment right to avoid self-incrimination.").

The

court then expressly found "that the prosecutor was not required
to advise him of his Fifth Amendment rights before eliciting his
testimony."

Id.

Woods points out that he describes his claim not

as a right to be advised of his rights when he appeared before the
grand jury, but rather as a right not to have his grand jury
testimony admitted at his subsequent criminal trial because he had
not been so advised.
the

same

coin,

But these two descriptions are two sides of

with

exclusion

at

trial

ramification of a prior failure to warn.

simply

being

the

And the SJC certainly

understood that the argument on direct appeal trained on the
- 10 -

D

Case: 20-1664

Document: 00117727420

Page: 11

Date Filed: 04/08/2021

Entry ID: 6414499

admission of the grand jury testimony given the absence of a
warning.

Indeed, in Woods II, the SJC described the argument made

prior to Woods I as a challenge "to the introduction of his grand
jury testimony."

102 N.E.3d at 965.

That leaves Woods's argument that the SJC only rejected
his Fifth Amendment argument because the court assumed he was not
a target.

This assumption, he argues, allowed the SJC to sidestep

the constitutional question.

See Commonwealth v. Paasche, 459

N.E.2d 1223, 1225 (Mass. 1984) ("We do not decide constitutional
questions unless they must necessarily be reached.").

It is true

that Woods I affirmed the trial judge's original finding that Woods
was not a target.

1 N.E.3d at 770–71.

But the SJC in Woods I

also expressly considered "[Woods]'s separate argument that the
Commonwealth must advise targets or potential targets of the grand
jury's

investigation

themselves."

of

Id. at 771.1

to grant Woods relief.

their

right

not

to

incriminate

That argument did not persuade the SJC

Instead of holding that Woods's grand jury

The SJC's mention of "potential targets" corresponds to
the scope of the question presented in Woods's brief, where he
argued that "a subject of the grand jury investigation" -- rather
than a target -- must be given self-incrimination warnings as a
prerequisite to the grand jury testimony's admission at the
subject's subsequent criminal trial. Compare U.S. Dep't of Just.,
Just. Manual § 9–11.151 (2018) (defining a "target" as "a person
as to whom the prosecutor or the grand jury has substantial
evidence linking him or her to the commission of a crime and who,
in the judgment of the prosecutor, is a putative defendant"), with
id. (defining a "subject" as "a person whose conduct is within the
scope of the grand jury's investigation").
1

- 11 -

D

Case: 20-1664

Document: 00117727420

Page: 12

Date Filed: 04/08/2021

Entry ID: 6414499

testimony should have been suppressed, the SJC promulgated a
prospective, non-constitutional rule regarding when grand jury
witnesses must receive self-incrimination warnings.

Id. at 772.

And, after the motion judge found that Woods had been a target,
the SJC stated in Woods II:

"[J]ust as the Commonwealth was under

no obligation to warn the defendant of his target status, even if
he were a target, so too was the Commonwealth under no obligation
at that time to advise the defendant of his right against selfincrimination."

102 N.E.3d at 966.

Finally, adding belt to

suspenders, the SJC stated that the motion judge "did not err" in
concluding that "this court's decision in Woods I upholding the
admission of the defendant's grand jury testimony did not depend
on the factual finding that the defendant was not a target of the
investigation."

Id.

On this record, Woods cannot overcome the presumption
that the SJC addressed Woods's federal claim on the merits.

We

must therefore review the SJC's ruling under AEDPA's deferential
standard.

See Jenkins, 824 F.3d at 152–53.

That standard, as

applied here, forecloses relief on Woods's federal claim.

As he

concedes, no clearly established Supreme Court precedent holds
that

the

Fifth

Amendment

is

violated

when

the

prosecution

introduces grand jury testimony given by a target who was not
warned of his privilege against self-incrimination.
of such precedent ends the inquiry.
- 12 -

The absence

See id. at 154 (rejecting

D

Case: 20-1664

Document: 00117727420

Page: 13

Date Filed: 04/08/2021

Entry ID: 6414499

petitioner's habeas claim where "no clearly established law from
the Supreme Court" supported his position).
,,,
For the foregoing reasons, we affirm the denial of
Woods's petition for a writ of habeas corpus.

- 13 -

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 1 of 36

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
___________________________________

)
)
)
Petitioner,
)
)
v.
)
)
SEAN MEDEIROS,
)
)
Respondent.
)
___________________________________)
THOMAS WOODS,

CIVIL ACTION
No. 15-13776-WGY

YOUNG, D.J.

June 8, 2020
0(025$1'80 25'(5

,

,1752'8&7,21
This petition for a writ of habeas corpus arrives after

years of back and forth in the courts of Massachusetts.

The

original criminal prosecution of Thomas Woods (“Woods”) for
first degree murder, in which he was haled in front of a grand
jury while unknowingly the target of the investigation, led the
Supreme Judicial Court to introduce a new, prospective rule
requiring law enforcement to warn targets of their rights.

The

Supreme Judicial Court did not apply this rule to Woods, and he
now comes before this Court asking for relief.
The underlying facts of Woods’s habeas corpus petition
concern the late-night killing of his friend Paul Mullen by two
masked men, and the subsequent investigation that led to his
indictment as their accomplice.

See Commonwealth v. Woods, 466
1

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 2 of 36

Mass. 707, 708 (2014), cert. denied, 134 S. Ct. 2855 (2014)
(“Woods I”); Commonwealth v. Woods, 480 Mass. 231 (2018), cert.
denied, 139 S. Ct. 649 (2018) (“Woods II”).

A Massachusetts

jury found Woods guilty of murder in the first degree in
violation of Mass. Gen. Laws ch. 265, § 1.
I) (“S.A. I”) 10, ECF No. 20.
prison without parole.

Id.

Suppl. Answer (Vol.

He was sentenced to life in
Woods appealed his conviction in

the Massachusetts courts alleging that there was not enough
evidence at trial for a jury to find him guilty beyond a
reasonable doubt, that his grand jury testimony was introduced
at trial to undermine his credibility when he was a target of
the investigation and had not been warned of his right to avoid
self-incrimination, and that he was deprived of his rights under
Massachusetts’s Humane Practice Rule.

See generally Woods I,

466 Mass. 707; Woods II, 480 Mass. 231.
Upon denial of those claims by the state courts, Woods
requests habeas relief on several grounds.
Habeas Corpus (“Am. Pet.”) 1, ECF No. 32.

See Am. Pet. Writ
First, he argues that

there was insufficient evidence for the jury to find beyond a
reasonable doubt that Woods intentionally participated in the
murder, that the victim of the shooting was the shooter’s
intended target, and that Woods was involved in a joint venture
with the shooter.

Id. at 6.

Second, Woods argues that the

Commonwealth violated his Fifth Amendment right against self2

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 3 of 36

incrimination because, despite being a target of the
investigation, he was not informed of his rights, not
represented by an attorney, and his grand jury testimony was
offered at trial against him.

Id. at 8.

Third, Woods argues

that for the above reasons he was deprived of his rights under
the Humane Practice Rule.

Id. at 9; see also Commonwealth v.

DiGiambattista, 442 Mass. 423, 446-48 (2004) (examining the
Humane Practice doctrine and the Massachusetts jury instructions
regarding voluntariness of unrecorded confessions).

Fourth and

fifth, Woods argues that he was the victim of both ineffective
assistance of counsel and prosecutorial misconduct because the
prosecutor did not tell the judge that he was target of the
grand jury investigation and his attorney unreasonably failed to
object to such misrepresentation or file evidence indicating his
target status.
,,

Am. Pet. 11-11A.

3URFHGXUDO+LVWRU\DQG5HOHYDQW)DFWV
$

7KH2ULJLQDO,QYHVWLJDWLRQDQG7ULDO

In his habeas petition, Woods does not contest the specific
factual findings by the Supreme Judicial Court, but rather
whether these findings are legally sufficient to support a
verdict.

When a federal court conducts habeas review of a state

criminal conviction, “determination of a factual issue made by a
State court shall be presumed to be correct.

The applicant

shall have the burden of rebutting the presumption of
3

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 4 of 36

correctness by clear and convincing evidence.”
2254(e)(1).

28 U.S.C. §

Thus, for its description of the facts, this Court

defers to the Supreme Judicial Court.
Woods and the victim, Paul Mullen (“Mullen”), were longtime
friends, but had a rift because Mullen owed Woods money.
I, 466 Mass. at 709.

Woods

On several occasions Woods expressed his

intention to “shoot” or “kill” Mullen.

Id.

The night of the

shooting, Woods agreed with Mullen to meet at a gas station, and
once there, Mullen -- while in the driver seat of Wood’s car -was shot by two masked men who were never identified.
708 & n.1.

Id. at

Woods was loitering inside the gas station store

during the shooting, but after finding Mullen’s body in his car
Woods moved the body out of the car and drove to his
girlfriend’s house.

Id.

Once there, a witness saw Woods

talking to a “five foot ten inch tall black man . . . wearing a
dark hooded sweatshirt and dark jeans.”

Id. at 711.

Woods’s

girlfriend indicated she saw a man “walking away from [Woods]
while waving at him.

She described him as a thin man, standing

about five feet, seven or eight inches tall, wearing dark jeans,
a black hooded sweatshirt, and a Carhartt-brand jacket.”
712.

Id. at

These descriptions coincide with witnesses’ descriptions

of one of the shooters, who was also described as wearing a
Carhartt jacket.

Id. at 708.

4

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 5 of 36

The police interviewed Woods twice at the police station,
reading him his Miranda rights prior to the second interview.
Id. at 712.

During this second interview, on February 6, 2006,

the police informed him that some of his previous statements
were not true, to which Woods responded that he did not want to
be considered a “snitch.”

Id.

Woods testified before the grand

jury four days later, on February 10, pursuant to a summons.
Resp’t’s Mem. L. Opp’n Pet. Writ Habeas Corpus, Addendum 1,
Plymouth County Grand Jury Summons, ECF No. 41.

There, Woods

presented an exculpatory version of events, and explained
several inconsistencies in his prior discussions with police.
Woods I, 466 Mass. at 712.

At trial, the prosecution presented

his grand jury testimony as evidence of his “conflicting stories
and outright lies” in order to impeach his credibility.
%

Id.

3URFHGXUDO+LVWRU\

Woods’ petition comes after significant litigation in the
Massachusetts courts, including two decisions of the Supreme
Judicial Court.
231.

See Woods I, 466 Mass. 707; Woods II, 480 Mass.

These appeals stem from Woods’ conviction in the Superior

Court on May 20, 2009 following a jury trial.

S.A. I 10.

Prior to his conviction, Woods testified before the grand
jury without the benefit of counsel, and the only warning of his
rights was an admonition to tell the truth.
at 234 & n.3; S.A. I 149-50.

Woods II, 480 Mass.

When the Commonwealth informed the
5

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 6 of 36

court that it intended to introduce the grand jury evidence at
trial, Woods filed a motion in limine to exclude the testimony
“because he was a target of the investigation but did not
receive ‘any warnings that he didn’t have to submit to that
questioning or that he could assert his Fifth Amendment
privilege.’”

Woods II, 480 Mass. at 233-34.

The trial judge

stated that he did not know if such a warning was required in
state criminal proceedings.

Id. at 234.

He asked the

prosecutor if Woods was a target, to which the prosecutor
responded he was a “person of interest” but not yet a target at
the time of the testimony.

Id.

The trial judge then issued an

oral ruling that Woods was not a target and that his rights had
not been violated.

Id. at 235.

Woods argued on his first appeal to the Supreme Judicial
Court that the Commonwealth had presented insufficient evidence
to prove he was guilty of engaging in a joint venture to murder
Mullen.

Woods I, 466 Mass. at 708.

He also argued that the

trial judge erred in not finding him to be a target of the
investigation, and that he was thus entitled to a warning of his
right against self-incrimination under the Due Process Clause of
the Fifth Amendment.

Id.

He further requested that the Supreme

Judicial Court order him a new trial.

Id. at 708-09.

The Supreme Judicial Court concluded, however, that the
evidence at trial was sufficient to permit a jury to find his
6

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 7 of 36

guilt.

Id. at 709.

It further concluded that at the time of

the grand jury testimony Woods was not a target of the
investigation.

Id.

Most important to the current petition, the

Supreme Judicial Court determined that even if Woods were a
target, there was no constitutional rule in place requiring he
be warned prior to his grand jury testimony.

Id. at 719-20.

The Supreme Judicial Court created a new rule, pursuant to its
power of superintendence over the Commonwealth’s courts,
requiring the Commonwealth to advise targets or potential
targets of their rights prior to testimony before a grand jury.
Id. at 720.

The court stressed, however, that Woods himself

would not get the benefit of the rule because it was “not a new
constitutional rule” and would be applied only prospectively.
Id.
Following the Supreme Judicial Court’s decision, Woods
filed a new trial motion under Massachusetts Rule of Criminal
Procedure 30(b).

See Am. Pet., Ex. 1, Mem. Decision Order

Def.’s Mot. New Trial 1 (“New Trial Order”), Commonwealth v.
Woods, No. 0683CR498 (Mass. Sup. Ct. Nov. 17, 2016), ECF No. 321.

Woods argued that because he was the fifth individual to

appear before that grand jury, the prosecution would have known
from the other witnesses that he was a target.

Id.

The motion

judge credited this argument after considering the testimony of
the other witnesses -- which was not considered in evidence at
7

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 8 of 36

the original motion in limine hearing -- and ruled that Woods
was a target at the time he testified before the grand jury.
Id. at 5 (citing Woods I, 466 Mass. at 719 n.12)).

Nonetheless,

the motion judge declined to order a new trial, explaining that
the Supreme Judicial Court had determined that Woods was “not
entitled to a warning regardless of his status as a target.”
Id. (emphasis in original).
Woods then appealed to the Supreme Judicial Court for a
second time, which decided to consider his request for a new
trial because it presented a “new and substantial question which
ought to be determined by the full court.”

S.A. I at 16-17.

There, Woods advanced the argument that the motion judge in
Woods I erred in upholding the admission of the testimony before
the grand jury.

Woods II, 480 Mass. at 237.

Woods also made

ineffective assistance of counsel and prosecutorial misconduct
claims, but the Supreme Judicial Court declined to address those
directly.

Id. at 239 n.10.

Instead, the Supreme Judicial Court

denied Woods’ motion for a new trial, ruling that the motion
judge was correct in determining that his status as a target
made no difference to the original ruling.

Id. at 238.

Though

the trial judge had stated that Woods’ target status “would
change the whole way that [he would] have to view this” issue,
the Supreme Judicial Court explained that upon reviewing the law
he would have discovered that there was no legal requirement at
8

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 9 of 36

that time for the government to give a warning.
(alteration in original).

Id. at 239

Since the court reviewed the denial

of a new trial for “a significant error of law or other abuse of
discretion,” it declined to grant Woods’ motion.

Id. at 237,

239.
Woods filed for habeas review within one year of the ruling
in Woods I, but this Court administratively closed the petition
pending the motion for a new trial.

See Pet. Writ Habeas

Corpus, ECF No. 1; Electronic Order, ECF No. 11; Order, ECF No.
12.

The instant habeas petition constitutes the reopening of

Woods’ previous petition and was filed within one year of Woods
II.

See Mot. Reopen, ECF No. 13.

This Court heard oral

argument from Woods and the respondents (“the government”) at a
motion session on February 11, 2020, at which time it took the
matter under advisement.

Electronic Clerk’s Notes, ECF No. 49.

,,, $QDO\VLV
In his memorandum in support of the petition for habeas
corpus, Woods focuses on three arguments.

The first is that a

reasonable jury could not have inferred that he was involved in
the shooting based on the evidence at trial.

Pet’r’s Br. Supp.

Pet. Writ Habeas Corpus (“Pet’r’s Mem.”) 5, ECF No. 33.

The

second is that the Commonwealth violated his Fifth Amendment
right against self-incrimination by presenting his grand jury
testimony at trial, despite the fact that he was a target of the
9

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 10 of 36

investigation and was not given any warnings prior to testimony.
Id. at 10.

The third is that he was deprived of his due process

rights through a combination of prosecutorial misconduct and
ineffective counsel related to the presentation of grand jury
testimony.

Id. at 16.

In his petition, Woods additionally brought a claim for
violation of the Humane Practice Rule art. 12, Am. Pet. 9, and
separated his third argument into two separate claims.
11-12.

Id. at

This Court has previously noted that a petitioner who

fails to develop an argument for a particular claim may be
deemed to have waived that claim.

See Lamartine v. Ryan, 215 F.

Supp. 3d 189, 193 (D. Mass. 2016).

Woods mentions the Humane

Practice Rules nowhere in his memorandum, so this argument is
waived.1

See generally Pet’r’s Mem.

As his fourth and fifth

claims are briefed together, this Court analyzes them together.
Id.
$

/HJDO6WDQGDUG

Habeas petitions seeking relief from state court
convictions are reviewed under the standard created by the
Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA"),
Pub. L. No. 104-132, 110 Stat. 1214.

AEDPA severely restricts

Additionally, the Humane Practice claim was fully
adjudicated and denied by the motion judge that considered
Woods’ motion for a new trial. See New Trial Order 6-8.
1

10

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 11 of 36

the federal courts’ power of independent review by allowing the
grant of a writ of habeas corpus only in certain narrow
circumstances:
An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a
State court shall not be granted with respect to any
claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the
claim-(1) resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
When applying section 2245(d)(1), “[a] state court decision
is contrary to clearly established federal law if it contradicts
the governing law set forth in the Supreme Court’s cases or
confronts a set of facts that are materially indistinguishable
from a decision of the Supreme Court but reaches a different
result.”

Companonio v. O’Brien, 672 F.3d 101, 109 (1st Cir.

2012) (internal quotation marks and citation omitted).

A habeas

court reviewing a decision under this subsection must ask if the
state court’s decision was “objectively unreasonable.”

Williams

v. Taylor, 529 U.S. 362, 409 (2000).
The “unreasonable application” branch applies when the
state court identified the correct legal principle but applies
11

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 12 of 36

it unreasonably to the facts at hand.

Id. at 407-08.

Under

section 2254(d)(2), a state court’s findings of basic or
historical facts “are entitled to a presumption of correctness
that can be rebutted only by clear and convincing evidence to
the contrary.”
2002).

Ouber v. Guarino, 293 F.3d 19, 27 (1st Cir.

“Inferences, characterizations of the facts, and mixed

fact/law conclusions are more appropriately analyzed under the
‘unreasonable application’ prong of section 2254(d)(1).”

Id.

These standards apply only to claims that were adjudicated
on the merits in state court proceedings.
F.3d 61, 67 (1st Cir. 2007).
merits is reviewed de novo.
%

Pike v. Guarino, 492

A claim not adjudicated on the
Id.

:RRGV¶8QUHDVRQDEOH,QIHUHQFH$UJXPHQW

Woods focuses his first argument on the evidence that led
the jury to believe he was connected to the men who killed
Mullen.

Pet’r’s Mem. 5.

Woods challenges two inferences

necessary to his conviction: whether it was a permissible
inference that the man he met at his girlfriend’s driveway was
the shooter, and whether a jury reasonably could infer that the
two shooters did not act alone, but instead with him as part of
a premeditated plot.

See id. at 7-9 (citing Woods I, 466 Mass.

at 768-69).
Woods cited the guiding principles from O’Laughlin v.
O’Brien, a case in which the First Circuit ruled that a lack of
12

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 13 of 36

direct evidence meant there was insufficient evidence to support
anything more than “reasonable speculation” that the defendant
was guilty.

568 F.3d 287, 302 (2009).

Woods notes the lack of

direct evidence in his case, including the fact that no
witnesses saw the shooter’s face or observed both the shooter
and the man in the driveway, and that descriptions of both the
shooter and the man in the driveway lacked detail.
8.

Pet’r’s Mem.

Woods says that all the evidence produced by the government

is amenable to innocent explanation.

Id. at 9.

He also calls

the government’s theory of the case nothing more than
“unreasonable inference (the man in the driveway was the
shooter) piled upon unreasonable inference (the two masked men
did not act alone).”

Id. (citing O’Laughlin, 568 F.3d at 301;

United States v. Valerio, 48 F.3d 58, 64 (1st Cir. 1995) (“[W]e
are loath to stack inference upon inference in order to uphold
the jury’s verdict.”)).
Woods’ first argument -- that his conviction was built on
several unreasonable inferences -- was adjudicated fully by the
Supreme Judicial Court in Woods I.

466 Mass. at 712-16.

This

Court reviews the court’s conclusions under the “unreasonable
application” branch of section 2254(d)(1).

Ouber, 293 F.3d at

27 (“Inferences, characterizations of the facts, and mixed
fact/law conclusions are more appropriately analyzed under the
‘unreasonable application’ prong.”).

In doing so, however, this
13

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 14 of 36

Court must keep in mind that the state court was already
reviewing the jury’s verdict under a highly deferential
standard, and this Court’s review of the state court’s decision
is also deferential.

This “twice-deferential” standard on

habeas review is particularly difficult for the petitioner to
overcome.

See Parker v. Matthews, 567 U.S. 37, 44 (2012).

Woods has not done so.
When reviewing the sufficiency of evidence, “the relevant
question is whether after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a
reasonable doubt.”

Jackson v. Virginia, 443 U.S. 307, 319

(1979) (emphasis in original).

The standard of “beyond

reasonable doubt cannot be premised on pure conjecture,” but
“conjecture consistent with the evidence becomes less and less a
conjecture, and moves gradually toward proof, as alternative
innocent explanations are discarded or made less likely."
O’Laughlin, 568 F.3d at 301 (quoting Stewart v. Coalter, 48 F.3d
610, 615-16 (1st Cir. 1995)).

When conflicting inferences are

possible from the evidence, “it is for the jury to determine
where the truth lies.”

Stewart v. Coalter, 855 F. Supp. 464,

468 (D. Mass. 1994) (Woodlock, J.) (quoting Commonwealth v.
Wilborne, 382 Mass. 241, 245 (1981)).

14

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 15 of 36

The Supreme Judicial Court in Woods I determined that a
jury reasonably could infer from the evidence at trial that the
shooters acted with premeditation and that Woods was engaged in
a joint venture with them.

Woods I, 466 Mass. at 713-15.

The

court noted that the evidence for a joint venture was
circumstantial, but that “[a] joint venture ‘may be proved by
circumstantial evidence.’”

Id. at 713 (citing Commonwealth v.

Bright, 463 Mass. 421, 435 (2012)).

The court further cited the

defendant’s threats against Mullen as evidence the jury could
consider in showing motive and intent for the murder.

Id.

It

also cited the fact that Woods brought Mullen to the gas station
and caused him to be sitting in the car when the shooters
attacked, as well as his conduct after the shooting.
714.

Id. at

A jury properly could have inferred from these facts, the

court held, that Woods had planned the attack.

Id.

The Woods I court additionally ruled that a jury could have
permissibly determined the man in the driveway was the shooter
based on the similarity of the witness descriptions.

Id. at

714-15 (citing Commonwealth v. Sylvia, 456 Mass. 182, 190-191,
(2010)).

Specifically, the court pointed out that a witness

identified the shooter as wearing a Carhartt-brand jacket, and a
separate witness identified the man in the driveway, with whom
Woods met immediately after the murder, as also wearing a
Carhartt-brand jacket.

Id.

The other identifying features were
15

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 16 of 36

similar, if not decisive, thus leading the court to call the
jury’s identification “permissible” though not “necessary or
inescapable.”

Id. at 715.

Woods attacks the sufficiency of the identification
evidence because, unlike in Sylvia, no witnesses saw the
shooter’s face or saw both the shooter and the man in the
driveway.

Pet’r’s Mem. 8 (citing 456 Mass. at 190-91).

He also

argues that there was “nowhere near enough detail” to support a
reasonable identification based on the witness testimony.

Id.

Woods is correct that there is less identifying information here
than in Sylvia, but “the evidence must be analyzed collectively
to determine if it proves the conspiracy.”
Beckett, 373 Mass. 329, 341 (1977).

Commonwealth v.

In light of the totality of

evidence, the Supreme Judicial Court was not unreasonable in
ruling that a jury permissibly could infer guilt.

The

descriptions given by the witnesses were not contradictory, and
the jury could have considered identification along with other
facts concerning motive, intent, and Woods’ actions before and
after the shooting.
Woods also attacks the sufficiency of evidence supporting
the government’s theory of joint venture as a whole, citing
O’Laughlin for the proposition that a habeas court may grant the
writ when there are innocent explanations that can account for a
defendant’s actions.

Pet’r’s Mem. at 6 (citing 568 F.3d at 30216

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 17 of 36

04).

O’Laughlin, however, is readily distinguishable.

In that

case, the First Circuit ruled the evidence of motive “weak at
best,” whereas in the instant case the prosecution established a
clear motive based on Woods’ threats against Mullen over a debt.
Compare O’Laughlin, 568 F.3d at 302, with Woods I, 466 Mass. at
713.

The O’Laughlin court also deemed the circumstantial

evidence of the physical attack weak, whereas in this case, the
jury inferred -- and the Supreme Judicial Court correctly
allowed -- that Woods’ actions were consistent with a plot to
lure Mullen to the gas station, and that he communicated with
the shooter afterwards.

O’Laughlin, 568 F.3d at 303.

Finally,

the O’Laughlin court determined that the prosecution had failed
to show “consciousness of guilt” clearly when that determination
was based on little more than the defendant’s nervous behavior
and contradictory statements in speaking to police on the night
of the incident, id. at 304, while in the present case, Woods
gave contradictory and false statements to the police on
multiple occasions over the course of several months following
the shooting, Woods I, 466 Mass. at 712.
Most important, the First Circuit ruled in O’Laughlin that
much of the evidence actively contradicted the government’s
theory.

568 F.3d at 302-04.

For example, the court noted that

the government had argued the defendant murdered the victim in
order to steal money, but no money was taken.

Id. at 302.
17

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 18 of 36

Here, Woods points to no evidence contradicting the government’s
theory, instead stating only that the government’s evidence is
“amenable to innocent explanations.”

Pet’r’s Mem. 9.

On

habeas review, however, a court “may not freely reweigh
competing inferences but must accept those reasonable inferences
that are most compatible with the jury’s verdict.”

Housen v.

Gelb, 744 F.3d 221, 226 (1st Cir. 2014) (quoting Magraw v.
Roden, 743 F.3d 1, 7 (1st Cir. 2014)).

It was reasonable for

the Woods I court to reach the conclusion that the jury’s
inference was plausible.
&

:RRGV¶)LIWK$PHQGPHQW$UJXPHQW

Woods’ second claim focuses on the circumstances
surrounding his grand jury testimony: his status as a target of
the investigation, compelled by official summons to appear at
the grand jury for the purpose of testifying, placed under oath
to tell the truth, unrepresented by counsel, and not informed
that there was a lawful right to refuse to answer where the
answers might be self-incriminating.

Pet’r’s Mem. 10, 15.

He

frames the constitutional question involved as pertaining to his
right “to allow a defendant’s objection to the prosecution’s
introducing at trial the defendant’s own grand jury testimony
taken prior to the indictment.”

Id. at 15.

He asserts that

this is a different claim than he advanced at trial, and that

18

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 19 of 36

“the SJC [in Woods I] never ruled on the constitutional issue.”
Id. at 11.
Woods next asserts that, reviewing the legal claims de
novo, this Court should determine that his Fifth Amendment
rights were violated.

Id. at 10, 13-14 (citing United States v.

Washington, 431 U.S. 181, 190 (1977)).

He distinguishes

previous cases where the Supreme Court declined to require
warnings before a grand jury testimony by explaining Woods was a
target, rather than a mere witness.

Id. (citing Roberts v.

United States, 445 U.S. 552, 562 n.* (1980) (Brennan, J.,
concurring); Garner v. United States, 424 U.S. 648, 655 (1976);
United States v. Mandujano, 425 U.S. 564, 580 (1976)).

He also

states that, though the First Circuit has never ruled on this
exact issue, it has “expressed considerable sympathy with the
approach of giving at least notice that a witness need not
testify if such would incriminate him.”

Id. at 14 (quoting,

with omitted quotation marks, United States v. Pacheco-Ortiz,
889 F.2d 301, 308 (1st Cir. 1989)).

In summary, he argues, the

reasoning behind the Fifth Amendment privilege against
compulsory self-incrimination requires that this Court rule that
his constitutional rights were violated.

Id. at 15 (citing

Michigan v. Tucker, 417 U.S. 433, 440 (1974) (discussing history
of inquisitions and torture in nations that “placed a premium on

19

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 20 of 36

compelling subjects of the investigation to admit guilt from
their own lips”)).


:RRGV¶)LIWK$PHQGPHQW$UJXPHQW:DV'HFLGHGRQ
WKH0HULWVLQ6WDWH&RXUW

In order to avoid the stringent standard of 28 U.S.C. §
2254(d)(1), Woods argues his claim that his Fifth Amendment
rights were violated when the prosecution failed to warn him
prior to his grand jury testimony was never decided on the
merits in state court.

Id. at 10.

Woods first argues that the Supreme Judicial Court never
ruled on his “constitutional issue.”
incorrect.

Id. at 11.

This is

The Supreme Judicial Court in Woods I recognized

that Woods argued that “he was a target of the investigation and
the Commonwealth was thus required to advise him of his Fifth
Amendment right to avoid self-incrimination.”

466 Mass. at 716.

After examining the question whether he was a target, it then
stated: “Even if the defendant were a ‘target,’ the Commonwealth
was under no obligation to warn him of that status.”
(citing Washington, 431 U.S. at 188-90).

Id. at 717

It analyzed Supreme

Court and First Circuit case law, noting that the Constitution
did not require the warnings Woods requested.

Id. at 718-19

(citing Mandujano, 425 U.S. at 580-81; Pacheco-Ortiz, 889 F.2d
at 308 (holding that warnings were not constitutionally required
where the prosecution introduced evidence of a defendant’s
20

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 21 of 36

untruthfulness before a grand jury solely to undermine his
credibility)).
The Supreme Judicial Court then stated its new prospective
rule requiring such warnings was “not a new constitutional rule”
but instead an exercise of its superintendence authority.

Woods

I, 466 Mass. at 718-20 (citing Pacheco-Ortiz, 889 F.2d at 308
(explaining that the grand jury context “gives rise to a kind of
coerciveness suggesting the wisdom of giving at least notice
that a witness need not testify if such would incriminate him”);
United States Attorneys' Manual § 9-11.151 (requiring federal
attorneys to advise persons appearing before a grand jury of
their rights)).

The Supreme Judicial Court did not explicitly

state “the government’s actions are constitutional,” but its
decision to act through its supervisory power only, and its
determination that the new rule did not apply to Woods’ case,
mean that it necessarily decided the constitutional issue.

See

Harrington v. Richter, 562 U.S. 86, 99 (2011) (“When a federal
claim has been presented to a state court and the state court
has denied relief, it may be presumed that the state court
adjudicated the claim on the merits in the absence of any
indication or state-law procedural principles to the
contrary.”).
In his reply brief and in a post-hearing memorandum, Woods
further argues that the Woods I court misunderstood his argument
21

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 22 of 36

on appeal.

See Pet’r’s Reply 1-5, ECF No. 42; Post-Hearing Mem.

2, ECF No. 50.

Woods contends that he had never alleged that he

was entitled to a target-warning, but instead had argued that
his compelled testimony should have been suppressed under the
Fifth Amendment.

Id. at 1-2.

Indeed, in his original brief

before the Supreme Judicial Court, Woods framed his question on
appeal as whether “use of the grand jury testimony against him
at his murder trial impermissibly infringed on defendant’s 5th
Amendment and art. 12 rights against compelled selfincrimination . . .”

S.A. I 61.

This appears to be a distinction without a difference.

The

potential Fifth Amendment violation occurred at the point where
Woods’ testimony was introduced at trial, see Chavez v.
Martinez, 538 U.S. 760, 767 (2003), but the only potential
constitutional problem with introducing the grand jury testimony
at trial was the government’s failure to warn him of his rights
as a target.2

See Washington, 431 U.S. at 191 (remanding lower

court’s suppression order after determining circumstances of
grand jury testimony were not coercive).

The Supreme Judicial

The Supreme Court unequivocally has held that there is no
general constitutional problem with calling the target of an
investigation before a grand jury, and this Court does not read
Woods’ original briefs as making this claim. See Mandujano, 425
U.S. at 573 (“It is in keeping with the grand jury’s historic
function as a shield against arbitrary accusations to call
before it persons suspected of criminal activity, so that the
investigation can be complete.”)
2

22

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 23 of 36

Court conducted its constitutional inquiry by reviewing the
motion in limine hearing where Woods asked that the evidence be
excluded.

Woods I, 466 Mass. at 717; see also Woods II, 480

Mass. at 233.

There is no difference, from a constitutional

perspective, between evidence being excluded at a motion in
limine hearing versus excluded at trial.

Thus, the Supreme

Judicial Court did rule explicitly on whether a constitutional
violation occurred, though it did not discuss Woods’ requested
remedy.
Woods also argues that his constitutional claim was not
adjudicated on the merits because the Woods II court, relying on
the Woods I opinion, decided on state grounds (rather than
constitutional grounds) that no warnings were required at the
time of his testimony despite his target status.
Mem. 2-3 (citing 480 Mass. at 237).

Post-Hearing

On habeas review, however,

this Court looks to the entirety of Woods’ record on appeal, and
because the Woods I court decided the federal constitutional
question, the decision by the Woods II court not to grapple with
the constitutional issues does not change the analysis.
In conclusion, because the Fifth Amendment issue was
decided on the merits by the courts of the Commonwealth, this
Court may review it only under the strict standard imposed by
AEDPA.

23

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 24 of 36



$('3$3UHFOXGHVWKLV&RXUWIURP&RQGXFWLQJ
,QGHSHQGHQW5HYLHZRIWKH6XSUHPH-XGLFLDO
&RXUW¶V)LIWK$PHQGPHQW$QDO\VLV

As the Supreme Judicial Court has already decided Woods’
Fifth Amendment argument on the merits, and its constitutional
analysis was neither contrary to nor involved an unreasonable
application of established Supreme Court precedent, this Court
cannot grant a habeas writ.

See 28 U.S.C. § 2254(d)(1).

The standard for determining whether federal law is
“clearly established” is whether it is dictated by “the
holdings, as opposed to the dicta” of Supreme Court decisions.
Taylor, 529 U.S. at 412.

A court conducting habeas review may

look to decisions by other federal courts to inform its analysis
of whether the state court’s decision was “objectively
unreasonable,” for example by seeing how those courts applied
the Supreme Court’s holdings to a particular set of facts.
Evans v. Thompson, 518 F.3d 1, 10 (1st Cir. 2008).

See

Decisions by

lower federal courts are not binding on a state court, however,
id. at 8, and “[i]t is not ‘an unreasonable application of’
‘clearly established Federal law’ for a state court to decline
to apply a specific legal rule that has not been squarely
established by th[e Supreme] Court.”

Knowles v. Mirzayance, 556

U.S. 111, 122 (2009) (citations omitted).

24

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 25 of 36

Woods argues that even were this Court to determine that
the Supreme Judicial Court decided the due process issue on the
merits, this Court ought nonetheless rule that the decision
contradicted clearly established precedent.
Post-Hearing Mem. 3-5, ECF No. 51.

Pet’r’s Suppl.

Woods argues the Supreme

Court has “broken sufficient legal ground” implicitly to create
a due process right to warnings for the target of a grand jury
investigation.

Id. at 2 (quoting Williams, 529 U.S. at 381-82

(plurality opinion)).

In doing so, he cites multiple cases that

examine a witness’s due process rights before a grand jury.3

The

language from these opinions does not, however, add together
cumulatively to create “clearly established Federal law” because
none of them is a holding addressing the constitutional issue
here.

See 28 U.S.C. § 2254(d)(1); Williams, 529 U.S. at 412.

There is, instead, precedent from the Supreme Court
indicating that the law in this area is unsettled.

In Mandujano

See Pet’r’s Suppl. Post-Hearing Mem. 3-5 (quoting
Counselman v. Hitchcock, 142 U.S. 547, 562 (1892) (“[A] person
should not be compelled, when acting as a witness in any
investigation, to give testimony which might tend to show that
he himself had committed a crime.”); Chavez, 538 U.S. at 767-68
(“[T]he government may compel witnesses to testify at trial or
before a grand jury, on pain of contempt, so long as the witness
is not the target of the criminal case in which he testifies.”);
Salinas v. Texas, 570 U.S. 178, 184-85 (2013) (“[A] witness need
not expressly invoke the privilege [against self-incrimination]
where some form of official compulsion denies him a free choice
to admit, to deny, or to refuse to answer.”) (citations and
internal quotation marks omitted)).
3

25

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 26 of 36

the Supreme Court faced the question of whether a lower court
was correct to suppress a witness’s testimony, when that witness
was a likely target of the investigation and had received some
rights warnings but not the full Miranda warnings.
566.

425 U.S. at

In the course of deciding that the defendant’s rights had

not been violated, the Supreme Court noted that “[t]he fact that
warnings were provided in this case to advise respondent of his
Fifth Amendment privilege makes it unnecessary to consider
whether any warning is required.”

Id. at 582 n.7.

Similarly,

in Washington, where the Supreme Court held the government did
not have a constitutional obligation to warn a witness of his
target status, it explicitly left undecided the issue of whether
any Fifth Amendment warning was required.

431 U.S. at 186.

The

government in that case had advised the witness of his general
Fifth Amendment rights as a grand jury witness, and the Supreme
Court explained that it was not ruling on “whether any Fifth
Amendment warnings whatever are constitutionally required for
grand jury witnesses; moreover, [it had] no occasion to decide
these matters today,” id., later adding, “[s]ince warnings were
given, [it was] not called upon to decide whether such warnings
were constitutionally required,” id. at 190.
Those are the last direct words from the Supreme Court on
the matter.

To address Woods’ constitutional claim at all the

Supreme Judicial Court had to decide without the benefit of a
26

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 27 of 36

“squarely established” rule from the Supreme Court, so this
Court cannot rule that the decision of the Supreme Judicial
Court -- not to extend the law to provide Woods constitutional
protection -- was error on habeas review.

See Mirzayance, 556

U.S. at 122.
This is not to say that, on de novo review, this Court
would, or would not, find that the government violated Woods’
(or another defendant in similar circumstances) constitutional
rights, but “federal courts are not to run roughshod over the
considered findings and judgments of the state courts that
conducted the original trial and heard the initial appeals.”
Williams, 529 U.S. at 383 (plurality opinion).
Neither is it to say, though, that this Court approves of
the prosecutor’s failure to warn Woods of his rights.

The

reasoning from Pacheco-Ortiz is particularly instructive,

889

F.2d at 308-11, and the Supreme Judicial Court relied in part on
it in crafting its prospective rule requiring target warnings,
See Woods I, 466 Mass. at 718 (citing 889 F.2d at 308).

The

facts in Pacheco-Ortiz were highly similar to those in this
case, though Pacheco-Ortiz occurred in federal, rather than
state, court.
In Pacheco-Ortiz, the prosecutor failed to give the
defendant any formal warnings prior to his grand jury testimony
(despite internal Department of Justice guidelines requiring him
27

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 28 of 36

to do so) and neglected to tell him of his target status.
F.2d at 309.

889

The defendant then gave exculpatory testimony

before the grand jury, which the government introduced at trial
to suggest these false sworn statements indicated consciousness
of guilt.

Id.

The First Circuit rebuked the prosecutor, noting

that in the recent case of United States v. Babb, “[it] assumed
that some warning was constitutionally mandated.”
(citing 807 F.2d 272 (1st Cir. 1986)).

Id. at 308

It then determined the

defendant’s constitutional rights had not been violated, in part
because “the Fifth Amendment privilege does not provide a shield
against perjury.”

Id. at 309 (quoting United States v. Wong,

431 U.S. 174, 178-80 (1977)).

It therefore considered the

prosecution’s failure to warn a harmless error.

Id. at 310.

While declining to suppress the evidence,4 the First Circuit
warned the Department of Justice that it may refer prosecutors
that failed to give warnings in the future to the Office of
Professional Responsibility.

Id. at 311.

This Court is constrained on habeas review.

In federal

court, Woods would have been able to rely on the First Circuit

The court in Pacheco-Ortiz noted that the Second and Third
Circuits both favored a remedy of suppression when prosecutors
failed to provide target warnings. 889 F.2d at 308-09 (citing
United States v. Jacobs, 547 F.2d 772 (2d Cir. 1976), cert.
granted, 431 U.S. 937 (1977), cert. dismissed, 436 U.S. 31
(1978); United States v. Crocker, 568 F.2d 1049, 1056 (3d Cir.
1977)).
4

28

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 29 of 36

precedents of Babbs and Pacheco-Ortiz, rather than cite them as
mere “reference point[s].”

Evans, 518 F.3d at 11.

He might

have been able to build a stronger case that his due process
rights had been violated.

This would be particularly true if he

could have shown that the prosecution’s failure to give warnings
was not “harmless error” from a constitutional perspective, see
Pacheco-Ortiz, 889 F.2d at 310, or if he could cite as
precedential the First Circuit’s “considerable sympathy” for
target warnings.

Id. at 308 (quoting United States v. Chevoor,

526 F.2d 178, 181-82 (1st Cir. 1975)).

He is statutorily barred

from doing so here, however, by the language of AEDPA, section
2254(d)(1), which allows only Supreme Court holdings to serve as
a basis for granting the writ of habeas corpus.
This requirement is one of many ways that AEDPA ties the
hands of this Court.

Since 1996, when Congress passed AEDPA,

the power of federal judges to enforce the Great Writ has been
significantly curtailed.

No longer are judges free to review

state court decisions de novo, see Brown v. Allen, 344 U.S. 443,
506 (1953) (Frankfurter, J.), but instead must submit to the
decision of the state court except in a few very narrow
circumstances.

See 28 U.S.C. § 2254(d).

As a result of AEDPA’s

heightened standard of deference and stringent procedures, far
fewer prisoners are now able to succeed in their petitions.

See

Nancy J. King, Fred L Cheesman II & Brian J. Ostrom, Final
29

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 30 of 36

Technical Report: Habeas Litigation in U.S. District Courts: An
Empirical Study of Habeas Corpus Cases Filed by State Prisoners
Under the Antiterrorism and Effective Death Penalty Act of 1996,
National Institute of Justice, Department of Justice (Aug. 21,
2007), https://www.ncjrs.gov/pdffiles1/nij/grants/219559.pdf.5
Indeed, it could be argued -- and judges in other circuits
have -- that AEDPA’s shrunken universe of habeas law (Supreme
Court holdings only) so constrains the “duty of the judicial
department to say what the law is,” Marbury v. Madison, 5 U.S.
(1 Cranch) 137, 177 (1803), that it is constitutionally suspect.
See Irons v. Carey, 479 F. 3d 658, 668-70 (9th Cir. 2007)
(Noonan, J., concurring); Davis v. Straub, 430 F.3d 281, 296-97
(6th Cir. 2005) (Merritt, J., dissenting); Lindh v. Murphy, 96
F.3d 856, 886-90 (7th Cir. 1996) (Ripple, J., dissenting).

The

First Circuit has dismissed these arguments by ruling that AEDPA
is an exercise of Congress’s ability to set the procedures and
remedies available in federal courts, rather than an
The study examined a random sample of 2384 non-capital
district court cases and found that courts granted relief in
seven of them –- a rate of one in 284. King et al., supra, at
58. Prior to the passage of AEDPA, approximately one in 100
cases resulted in relief, a rate nearly three times higher. Id.
The study also found that a greater proportion of post-AEDPA
cases were for serious crimes than pre-AEDPA, Id. at 54-55, so
it is possible that the types of cases in the sample affected
the rate of relief. Yet the dramatic reduction in the grant of
relief suggests that there are many cases that have been blocked
by AEDPA that a district court may otherwise have deemed
meritorious.
5

30

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 31 of 36

unconstitutional attempt to guide the courts’ discretion.
Evans, 518 F.3d at 8-9.

The First Circuit’s reasoning binds

this Court, but it retains concern over how the law operates in
practice.
AEDPA has thus foreclosed one of Woods’ possible avenues
for relief.

This Court is severely restricted in examining

whether his rights were violated because the Supreme Judicial
Court’s decision did not contravene Supreme Court precedent when
the Supreme Court has not decided the issue.

The Court

therefore must reject Woods’ argument that his due process
rights were violated.
'

:RRGV¶3URVHFXWRULDO0LVFRQGXFWDQG,QHIIHFWLYH
$VVLVWDQFHRI&RXQVHO&ODLPV

Woods’ third and final argument concerns the trial court’s
determination that he was not the target of the investigation.
Pet’r’s Mem. 16.

At a preliminary hearing, the prosecution

denied that Woods was already a target when he testified before
the grand jury.

Id. at 18.

Woods’ attorney failed to introduce

into evidence (without a “strategic reason”) the transcripts of
testimony that indicated Woods had made threats against the
victim and that the prosecutor was focusing his questioning on
him.

Id., Addendum 2, Aff. John A. Amabile ¶ 8, ECF No. 41.

It

was these grand jury transcripts that later led the motion judge
to determine that Woods was in fact a target.

S.A. I 243.
31

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 32 of 36

Woods argues that he was deprived of a fair hearing and a
reasonable determination of voluntariness because of
prosecutorial misconduct and ineffective assistance of counsel.
Pet’r’s Mem. 16 (citing Jackson v. Denno, 378 U.S. 368, 376-77
(1964)).

Woods contends that, though the Supreme Judicial Court

rejected his argument, it did so using the wrong standard. Id.
at 17 (citing Woods II, 480 Mass. at 239 n.10; Linkletter v.
Walker, 381 U.S. 618, 639 n.20 (1965)).

Woods argues that the

correct standard is whether he was deprived of due process
because the trial judge did not have the facts necessary to make
a “reliable determination that his statements before the grand
jury were in fact voluntarily rendered.”

Id. at 18-19.

Regarding the ineffective assistance of counsel claim, Woods
states that there is a “reasonable probability” that the trial
court would have determined he was a target had his counsel
filed the grand jury transcripts.

Id. at 19-20.

The Woods II court declined to address the question of
whether the prosecutorial misconduct or ineffective assistance
of counsel claims were viable, because it held that whether
Woods was a target was not relevant.

480 Mass. at 239 n.10.6

It

There is a rebuttable presumption that any claim properly
brought before the state court was adjudicated on the merits.
See Harrington, 562 U.S. at 100; Magraw v. Roden, 743 F.3d 1, 910 (1st Cir. 2014). Here, however, the Supreme Judicial Court
said “we need not address” Woods’ ineffective assistance of
6

32

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 33 of 36

explained that Woods’ case was based on “an alleged violation of
a right that simply did not exist at the time of trial.”

Id.

Because these claim were not specifically adjudicated this Court
reviews them de novo, Pike, 492 F.3d at 67, though it finds the
Supreme Judicial Court’s analysis persuasive regarding the
harmlessness of the alleged errors.
Regarding ineffective assistance of counsel, the relevant
test comes from Strickland v. Washington, 466 U.S. 668, 687
(1984).7

Under Strickland, a reviewing court can find that

counsel’s actions could have deprived the defendant of his due
process rights if counsel’s performance was “outside the wide
range of professionally competent assistance,” Id. at 690, and
“there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have
been different.”

Id. at 694.

Woods argues that there is a “reasonable probability” that
the outcome of trial would be different had his counsel properly
introduced the grand jury testimony to the trial judge.

Pet’r’s

counsel or due process arguments, which rebuts the assumption.
480 Mass. at 239 n.10.
7 Massachusetts state courts apply the standard from
Commonwealth v. Saferian, which asks whether “there ‘has been
serious incompetency, inefficiency, or inattention of counsel,’”
and whether counsel’s behavior “likely deprived the defendant of
an otherwise available, substantial ground of defence.” 366
Mass. 89, 96 (1974). For federal habeas purposes, “Saferian is
a functional equivalent of Strickland.” Ouber, 293 F.3d at 32.
33

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 34 of 36

Mem. 19-20.

Woods had no legal right to a warning prior to his

grand jury testimony.

See Woods II, 480 Mass. at 239.

The

Supreme Judicial Court noted that even if the trial judge had
reviewed the grand jury testimony, he may not have concluded
that Woods was a target at the time, and further would not have
been required to issue a warning because it was not
constitutionally required.

Id.

To succeed on the prejudice branch, a petitioner must show
two things.

First, when an attorney fails to take reasonable

steps to suppress evidence damaging to the petitioner’s case,
the petitioner must, at a minimum, show that the motion to
suppress would have been granted but for the attorney’s
unreasonable action.
Cir. 2018).

Walker v. Medeiros, 911 F.3d 629, 633 (1st

The petitioner must then show that success on the

motion to suppress would be reasonably probable to lead to a
different result at trial.
first step.

Id.

Wood’s contention fails on the

This Court agrees with the Supreme Judicial Court

that Woods would have been successful at the motion in limine
hearing only had the trial judge chosen to exclude the evidence
at his own discretion, making his contention mere speculation.
Woods II, 480 Mass. at 239.

It was not prejudicial, therefore,

that Woods’ counsel did not submit the grand jury testimony to
the trial judge.

34

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 35 of 36

Regarding prosecutorial misconduct, a reviewing court may
find reversible error when a prosecutor’s actions “so infected
the trial with unfairness as to make the resulting conviction a
denial of due process.”

Darden v. Wainwright, 477 U.S. 168, 181

(1986) (citation omitted).

In analyzing this question, courts

engage in “harmless-error analysis”.

Arizona v. Fulminante, 499

U.S. 279, 306-07 (1991).
Here, the government’s action -- declining to label Woods a
“target” –- is not likely to have affected the trial’s outcome.
Even if one assumes the prosecutor was intentionally lying to
the court, as opposed to having made a subjective judgment that
Woods was not yet a target,

Woods had no constitutional or

state right to have that evidence suppressed regardless of his
status as a target.

Woods II, 480 Mass. at 239.

Thus, the

ultimate effect on the trial is entirely speculative.

see

United States v. Casas, 425 F.3d 23, 40-41 (1st Cir. 2005)
(holding that prosecutor’s deception of the trial court did not
affect due process rights of defendant when it was not likely to
have affected ultimate decision at trial).

Since the question

would make no difference in the final determination, this Court
declines to reanalyze whether the prosecutor’s actions actually
constituted misconduct.

35

D

Case 1:15-cv-13776-WGY Document 52 Filed 06/08/20 Page 36 of 36

,9 &RQFOXVLRQ
For the foregoing reasons, Woods’ petition for a writ of
habeas corpus is DENIED.
6225'(5('

/s/ William G. Young
WILLIAM G. YOUNG
DISTRICT JUDGE

D
36

Case: 20-1664

Document: 00117733175

Page: 1

Date Filed: 04/26/2021

Entry ID: 6417659

United States Court of Appeals
For the First Circuit

______________________________
No. 20-1664

THOMAS WOODS
Petitioner - Appellant
v.
SEAN MEDEIROS, Superintendent
Respondent - Appellee
_______________________________
Before
Lynch, Selya, and Kayatta,
Circuit Judges.
___________________________
ORDER OF COURT
Entered: April 26, 2021

Appellant Thomas A. Woods's Petition for Rehearing is denied.
By the Court:
Maria R. Hamilton, Clerk

cc:
Myles Jacobson
Susanne G. Reardon
Abrisham Eshghi
Thomas A. Woods

D

f.l

Neutral
As of: October 24, 2018 2:5-J PM z

.Commonwealth v. •Woods
Supreme Judicial Court of Massachusetts
April 5, 2018, Arguedi August 7, 2018, Decided

SJC-12324.
Reporter

480 Mass. 231 •; 102 N.E.3d 961 -: 2018 Mass. LEXIS 54-S-•; 2018 WL 3733601

COMMONWEALTH

Outcome
Judgment affirmed.

vs. THOMAS A. WOOD!;.

Prior History: Plymouth. INDICTMENT found and
returned in the Superior Court Department on October

LexisNexis® Headnotes

5, 2006. -

Following review by this court, 466 Ma,ss. 707, 1 N.E.3d
762 (2014) r-11, a motion for a new !trial was heard by

Thomas F. McGuire, Jr., J .

A request for leave to appeal was allowed by Lowy, J.,
in the Supreme Judicial Court for the ciounty of Suffolk.

Commonwealth v. Woads, 466 Mass. 707. 2014 Mass.
LEXIS 1, 1 N.E.3d 762 (Jan. 2, 2014)

Core Terms
target, trial judge, witnesses, grand jur,r testimony,
grand jury, warnings, new trial; self-incIrimination, grand
jury investigation, defense motion, direct appeal, in
limine, substantial evidence, testifying~ pretrial, snooting

Case Summary
Overview
HOLDINGS: [1]-Defendant was not 1entitled to a . new
trial based on a failure to warn him of his privilege
against self-incrimination before he 'testified before a
grand jury - because, even if he w,ere a "target• of
investigation, the Commonwealth was under no
obligation to warn him of that status, and it was
inappropriate to speculate that a trial court would have
excluded hi~ testimony had it known he was a likely
target, and the rule requiring advising a grand jury
witness who i~ or may become a targ1et of inves~gation
of his or her privilege against self:-in1crimination before
testifying was not the law at the time dlefendant testified,
and the rule was explicitly made prospective.

Criminal Law & Procedure > ... > Self-Incrimination
Privilege > Invocation by Witnesses > Warnings

~ ] Invocation by Witnesses, Warnings
Grand jury witnesses who are targets or likely targets of
a criminal investigation must be given self-incrimination
warnings before testifying.

Criminal Law & Procedure > ... > Self-Incrimination
PrMlege > Invocation by Witnesses > Warnings

~ ] Invocation by Witnesses, Warnings
Where, at the time a person appears to testify before a
grand jury, the prosecutor has reason to believe that the
witness is ~ither a target or is likely to become one, the
witness must be advised, before testifying, that (1) he or
she may refuse to answer any question if a truthful
answer would tend to incriminate the witness, and (2)
anything that he or she does say may be used against
the witness in a subsequent legal proceeding. This rule
ls nonconstitutional and therefore is only re.quired to be
applied prospectively.

Criminal Law &
Procedure > Appeals > Reviewability

~ ] Appeal~. Reviewability

MYLES JACOBSON

D

480 Mass. 231, "231 j 102 N.E.3d 961, -981; 2018 Mass. LEXIS 548, ***1
A single justice's determination that a petition raises a
new and substantial question under Mass. Gen. Laws
oh. 277, § 33E, is final and unreviewable.

Criminal Law & Procedure > ... > Standards of
Review > Abuse of Discretion > New Trial.

HN4{1:.J Abuse of Discretion, New Trial
The denial of a defendant's motion for a new trial is
reviewed for a significant error of law or other abuse of
discretion.

Headnotes/Syllabus
Headnotes

MASSACHUSETTS OFFICIAL REPORTS

HEADNOTES

Homicide> Grand Jury> Evidence > Testimony before
grand jury > Practice, Criminal> Grand Jury
proceedings > Witness > Self-Incrimination

Page2 of8

Judges: Present: GANTS, C.J,, LENK, LOWY, Buoo,
CYPHER, & KAFKER, JJ.
Opinion by: CYPHER

Opinion
[*"962] CYPHER, J. The defendant, Thomas A. Woods,
appeals from the denial of his motion for a new trial. In
2009, the defendant was convicted of murder in the first
degree and sentenced to life in prison. On direct appeal,
he challenged the admission of his grand jury testimony
- later used as substantive evidence at trial -:- arguing
that it was illegally obtained, because he was not
informed before testifying either that he was a target of
a grand jury investigation1 or that he had a right against
selHncrimination. [*232] The court concluded that the
trial judge did not err in finding that the defendant was
not a target of the grand jury when he was called before
the grand jury to testify, [""'*2) and affirmed his
conviction. See Commonwealth v. Woods, 466 Mass.
707, 709, 716-720, 1 N.E.3d 762, cert. denied, 134 S.
Ct. 2855, 189 L. Ed. 2d 818 (2014) (Woods f). In doing
so, the court also announced a prospective rule,
pursuant to its superintendence authority, HN1('1J
requiring that grand jury witnesses who are targets or
likely targets of a criminal investigation be given selfincrimination warnings before testifying. Id. at 719-720.

A Superior Court judge did not err in denying a criminal
defendant's motion for a new trial, in which the
defendant argued that his grand jury testimony had
been improperly admitted at trial, where, even if the following Woods I, the defendant moved for a new trial,
defendant had been a target of a criminal investigation contending that facts not before the trial judge or this
at the time he testified before the grand jury, the court during his direct appeal establish that the
Commonwealth was under no obligation at that time to defendant was a target of a grand jury investigation;
advise him of his right against self-incrimination, in that accordingly, the defendant argued, his grand jury
the defendant was· not entitled to retrospective testimony was improperly admitted, and he deserved a
application of a rule announced by this court in a prior new trial. The motion judge, who was not the trial judge,
case requiring that grand jury witnesses who are targets disagreed, concluding that although the new facts raised
or likely targets of a criminal investigation be given such in the defendant's motion establish that he was a target
warnings before testifying; and where, even if the trial of the lnvestigation, this court's holding in Woods I ''was
judge would have concluded based on the testimony of not dependent on the finding that the defendant was not
certain olher grand jury Witnesses that the defendant a target" The defendant then filed a petition before a
had been a target of a criminal investigation, it could not single justice of the county court pursuant to G. L. c.
be said that ·the trial judge ·would have excluded the 278. § 33E', asking that his appeal from the denial of his
defendant's grand jury testimony from evidence on that motion be considered by the full court. The single justice
basis. [237-239]
·
granted the petition in March, 2017, concluding that it
"present{ed) C-3] a new and substantial question
Counsel: Myles D. Jacobson for the defendant.
which ought to be determined by the full court." G. L. c.
278, §33E.

Carolyn A. Burbine, Assistant District Attorney, for the
Commonwealth.

For the reasons that follow, we discern no error in the
motion judge's conclusion, [**963] and affirm the denial

MYLES JACOBSON

D

480 Mass. 231 , ~32; 102 N.E.3d 961, - 963; 2018 Mass. LEXIS 548, *...3
of the defendant's motion for a new trial.
Background. The facts underlying the defendant's
. conviction of murder in the first degree are fully set forth
In Woods I, 486 Mass. at 709-712. We review only
those facts pertinent to the defendant's postconviction
proceedings.

1. Grand jury investigation. In February~ 2006, the
defendant appeared as the fifth witness to testify before
a grand jury investigating the December, 2005, shooting
death of Paul MUiien in Brockton. Prior to testifying, the
defendant had ·been interviewed by police twice. Four
witnesses testified before the grand jury prior to the
defendant, and two of those witnesses - David Sheff
and Nicole Derochea - stated that they had had heard,
secondhand, that the defendant had threatened to shoot
the victim before the killing occurred. When the
defendaht appeared to testify, he was not informed that
he was a target of the investigation or that [*233) he
had a right against self-incrimination. In his grand jury
testimony, he provided an exculpatory version of events .
on the night [""4] of the shooting, and explained
certain Inconsistencies between this version of events
and what he had s~id during his prior interviews with
police. At the end of a nine-month investigation that
involved approximately forty witnesses and generated
1,700 pages of transcripts, the grand jury returned an
indictment against the defendant in October, 2006.
2. Defendant's pretrial motion in limine. In March, 2009,
the defendant tiled a motion in limine to exclude his
grand jury testimony from use at his trial,1
arguing that he was "not informed that (he] was a target
of the grand jury investigation" or that he could exercise
his right not to testify. The motion stated the date of the
defendant's grand jury appearance (February 10, 2006).
The Commonwealth sought to introduce that testimony
in order to illustrate "wide-ranging inconsistencies and
implausibilities in [the defendant's} account[ }» of the
night of the shooting. See Woods I. 466 Mass. at 712
("His grand jury testimony was admitted in evidence ...
to illustrate his conflicting stories and outright lies").
3. Commonwealth's pretrial motion in limine. On April
24, 2009, the Commonwealth filed its own motion in
limine seeking to admit evidence of prior bad acts C-5]
by the defendant. The motion described the testimony of

1 The

motion was also directed at the defendant's, prior
statements to police, but the defendant raises no claim of error
with respect to those statements.

Page 3 of6

five grand jury witnesses, including Derochea, who were
expected to testify at trial regarding threats made by the
defendant against the victim. The Commonwealth
attached to the motion the transcripts of the five
witnesses' testimony. It is not clear from the record,
however, the form in which those transcripts were
presented specifically, whether the attachments
clarified the date of each witness's testimony because those attachments were not included with the
Commonwealth's motion as part of the instant record.2

4. Pretrial hearing on the motions. On April 27, 2009,
the trial judge held a hearing on both motions. Defense

counsel reiterated the position that the defendant's
testimony was involuntary because he Was a target of
the investigation but did not receive "any warnings that
he didn't have to submit to that questioning or that
r234J he could assert his Fifth Amendment privilege."3
["*964] He argued that the issue was "whether or not
the government was under any obligation to inform [the
defendant} he was the target of the investigation and .. .
that he had a Fifth Amendment privilege." Counsel
acknowledged that he "ha[d}n't found a [S)tate case
directly on point," C-6] and stated that his argument
was based on his own practical experience, having
2 We

can nevertheless conclude that the Commonwealth
provided these transcripts to the trial Judge because the
Commonwealth's .motion stated that the grand jury transcripts
for the witnesses were attached and, at the hearing on the
motion, the Commonwealth asked the judge to impound those
attachments.
s Defense counsel's pretrial argument that the defendant was a
target was based solely on the defendant's own grand jury
testimony: "{l)f you read [the defendant's grand jury testimony],
it's abundantly clear that he was a target . . . . [H]e is being
confronted by the prosecutor in a way that Is designed to
further build the case against him that they already have, in
their mind, made.... It's tiot a well, what happened, what did
you see, and what did you do; it's a confrontational interview
or interrogation in front of the grand Jury where he's not
represented by counsel. And he's clearly the target of the
investigation at that point." The prosecutor responded that he
had taken. the same approach to examining 1he defendant as
he had with other grand jury witnesses who had provided
inconsistent statements to police, and that ·such •a vigorous
examination ot a witness pn] a grand jury investigation ...
doesn't make the person a target at the time of the
examination." At the hearing, the trial judge indicated that he
agreed with the Commonwealth: "[W]hen I read the grand jury,
it didn't Jump out to me that he was a target. . . . I got the
impression, clearly, that they felt he knew more than he was
saying, and that was the gist of the questionpng]."

MYLES JACOBSON

D

480 Mass. 231, "234; 102 N.E.3d 961 , **964; 2018 Mass. LEXIS 548, ***6
never witnessed a situation where a grand jury target
was not informed of that status or given warnings before
testifying. Before asking the Commonwealth for its
position, the trial judge likewise stated, •1 didn't realize
this was an issue, so I haven't researched the law on it I
know in the (F]ederal system If somebody's going to be
a target, they're told. But I haven't researched this whole
issue, but I will."
The trial judge asked the prosecutor, who had also been
responsible for the grand jury investigation: "At the time
- if you can say this, because it would change the
whole way that I'd have to view this, in your opinion, was
[the defendant] a target of the investigation when you
brought him to the grand jury?" The prosecutor replied
that although the defendant's inconsistencies in his
earlier ~tatements to police made him •a person of
interest" - "[t]here were things that weren't adding up
. . . that he seemed to know a lot more than he was
letting on. And so that was the nature of our inquiry with
[the defendant]" - the Commonwealth did not consider
him a "targef' until additional "witnesses came r-*71 in
and testified about threatenihg statements •. . that [the
defendant] had made to [the victin,], and additional
information was gathered about [the defendant] as the
Investigation went on [*235) In subsequent months
leading up to (the] October" indictment. The prosecutor
added that had the defendant been a target, he would
have 1eceived a letter Informing him of that status.
On May 6, 2009, the trial judge issued an oral ruling
denying the defendant's motion. He found that u[b]ased
upon the evidence before [him), the defendant ... was
not a target, but [the Commonwealth] believed that he
knew more than he told and he was not being fully
truthful." 4
The judge also found that the defendant was r*965]
not under the Influence of drugs or alcohol, threatened,
coerced, or offered false promises when appearing
for what the trial j1,1dge had before him when making this
determination, it appears from the available record that the
judge had received the date and transcript of the defendant's
own grand jury testimony, established through the defendant"s
motion in limine and the submission of the transcript of the
defendant's testimony. In addition (albeit in coMectlon with the
Commonwealth's separate motion to admit evidence of the
defendant's prior bad acts), the trial judge had received the
transcripts of five additional grand Jury witnesses (Including
Nicole Oerochea); however, because the Commonwealth's
attachments are not a part of the instant record, we cannot
dlscem ~w informed the Judge might have been as to the
content and date of each of those five witness's testimony.

4 As

Page4of6

before the grand jury, and "was treated appropriately,"
such that his testimony was free and voluntary under
the totality of the circumstances.
5. Defendanrs direct appeal. At trial, the jury found the
defendant guilty of murder in the first degree. On direct
appeal, he continued to press his objection to the
introduction of his grand jury testimony, arguing that it
infringed on his "[F]ederal and
[S]tate law rights
against compelled self-incrimination." We rejected the
argument that self-incrimination warnings were legally
required at the time, thus upholding the trial judge's
denial of the defendant's motion In limlne. Woods I. 466
Mass. at 716-720. We discerned no error in the trial
judge's finding that the defendant was not a target, and
added that "[e]Ven if the defendant were a 'target,' the
Commonwealth was under no obligation to warn him of
that status" under Federal or State law. Id. at 717, citing
United States v, Washington. 431 U.S. 181, 188-190. 97
S. Ct. 1814. 52 L. Ed. 2d 238 (197V, and
Commonwealth v. D'Amour. 428 Mass. 725, 743. 704
N.E.2d 1166 (1999).

r~J

We then "conslder[ed] for the first time" what we
perceived as "the defendant's separate argument that
the Commonwealth must advise targets or potential
targets
the grand jury's investigation of their right not
to incriminate themselves." Woods I, 466 Mass. at 717718. Concluding that a grand jury summons '1s-a form of
[*236] compulsion," we "adopt{ed) a rule that HN:6.?]
where, at the time a person appears to testify before a
grand jury, the prosecutor has reason to believe that the
witness Is either a 'target' or Is likely to become one, the
witness must be advised, before testifying, that (1) he or
she may refuse to answer any question if a truthful
answer would tend to incriminate the witness, and (2)
anything that he or she does say may r-9) be used
against the witness in a subsequent legal proceeding"
(footnote omitted). Id. at 719-720.5

of

We clarified that the rule is nonconstitutional and
therefore "is only required to be applied prospectively.•
Id. at 720.

5 The

court adopted the United States Attorney's Manual

definition of ''target,• as Ma person as to whom the prosecutor

or the grand jury has substantial evidence linking him or her to
the commission of a crime and who, In the judgment of the
prosecutor, is a putative defendant" Commonwealth v.
Woods, 466 Mass. 707, 716. ·719 n. 12, 1 N.E.Sd 7§2 12014)
(Woods I), quoting United States Attorneys' Manual§ 9·11.151
(2009).

MYLES JACOBSON

D

480 Mass. 231, ~36; 102 N.E.3d 961, -965; 2018 Mass. LEXIS 548, -•9
6. Motion for a new trial. The defendant subsequently
nioved for a new trial, where he focused primarily on
refuting the trial judge's factual detennination that he
was not a target of the investigation.6
Toe defendant attached the grand jury testimony of the
four witnesses who had testified before the defendant
during the grand jury investigation, but whose testimony
was largely unknown to the trial judge, and therefore
was not a part of the record in Woods /.7
Two of those witnesses . [**966) Sheff and
Derochea - testified to hearsay statements they had
heard about threats the defendant had made against the
victim before the shooting. The motion judge agreed
that the grand jury testimony of these two witnesses
constituted "substantial evidence'1 linking the defendant
to the crime, thus rendering him "a target or potential
target of the investigation." The judge declined to grant
the defendant a new trial on that basis, however,
concluding that this court's decision in Woods I was not
dependent [***1 OJ on the factual r2s71 finding that the
defendant was not a target of the investigation.

[~] Discussion. HN3['1f] A single justice's determination
that a petition raises a "new and substantial question"
under G. L. c. 2TT, § 33E, is "final and unreviewable."
Commonwealth v. Scott, 437 Mass. 1008, 1008, 770
We review the denial of the
N.E.2d 474 (2002).
defendant's motion for a new trial for ~a significant error
of law or other abuse of discretion" (citation omitted).
Commonwealth v. Acevedo, 446 Mass. 435, 441. 845
N.E.2d 274 /20061. The defendant argues that the
motion judge made such an error in concluding that this
court's decision in Woods I upholding the admission of
the defendant's grand jury testimony did not depend on
the factual finding that the defendant was not a target of

!:!.!:Hf¥1

Page 5 of6

the investigation. The motion judge did not err.
First, the language of Woods I makes clear that the
motion' judge was correct. On direct appeal, the
defendant raised the very same legal argument that he
puts before us now: because he Was a target of the
grand jury, he was entitled to self-incrimination
warnings. The court specified in Woods I. 466 Mass. at
717, that 11[e}ven if the defendant were a 'target,' the
Commonwealth was under no obligation to warn him of
that status" (emphasis added). Likewise, addressing
"the defendant's separate argument" regarding selfincrimination warnings, the court [***11] acknowledged
that it was considering the issue "for the first time" meaning that nothing prior to Woods I required settincrimination warnings as a matter of law. Id. at 717718. In other words, just as the Commonwealth was
under no obligation to wam the defendant of his target
status, even if he were a target, so too was the
Commonwealth under no obligation at that time to
advise the defendant of his right against selfincrimination. The court adopted that very requirement
in the defendant's case, and stated that it was to apply
only prospec~ively, "to grand jury testimony elicited after
the issuance of the rescript ln [that) case." Id. at 720.
Thus, irrespective of the defendanfs target status, he
was not entitled to the new rule.8

8 Notwithstandlng the language of Woods I, the defendant
suggests In a single sentence of his brief that he is entitled to
the retrpactive benefit of the Woods I rule, based on the
court's opinion in Commonwealth v. Adlutant, 448 Mass. 649,
667, 824 N.E.2d 1 (2005). See Commonwealth v. Candelario.
446 Mass. 84-7. 859, 848 N.E.2d 769 (2006), quoting
Commonwealth v. Donahue. 430 Mass. 710. 714 n.1. 723
N.E.2d 25 (2000) (single sentence stating claim with citation
~Vn]adequate for appellate consideration• under Mass. R, A. P.
18 (a1f41, as amended, 367 Mass. 921 [1975]). He expands on
this
argument somewhat in a postargument letter prompted by
6The defendant contended that the trial judge's finding that the
dMendant was not a target resulted from ineffective assistance a qu~tion during oral argument concerning Adjutants
of counsel or prosecutorial misconduct. The defendant potential application. In Adjutant, the court announced a new
separately ·argued that he was "deprived of a fair opportunity common•law rule of evidence, and concluded that the
for proper application of the Humane Practice Rule,• but he defendant should be given the benefit of the new rule - thus
entitling her to a new trial - because the defendant had
does not continue to pursue that claim before us.
alleged the error and argued for the new rule on direct appeal.
7 The defendant submitted the grand jury testimony of the four
Adiutant supra, citing Commonwealth v. Dagley. 442 Mass~
witnesses who had testified at the grand jury prior to his own 713, 721 n.10, 816 N.E.2d 527 (2004), cert. denied, 544 U.S.
testimony, fncluding David Sheff and . Oerochea, with his 980, 125 S. Ct. 1668, 161 L. Ed. 2d 494 (2005). Adiutant is
motion for a new trial. Although the trial judge had received inapposite because that case involved a defendant's direct
Derochea's testimony in some manner (as part of the appeal, whereas this case involves the defendant's
Commonwealth's motion in limlne to admit prior bad act postconviction proceedings. The defendant offers no authority
evidence, see note 4, supra), it does not appear that the to support the claim that he is entitled to the retroactive
transcripts of the testimony of Sheff and the other two benefit, on collateral review, of a nonconstitutlonal rule first
witnesses were provided to the trial Judge.
announced in his direct appeal, where the court specified that

MYLES JACOBSON

D

480 Mass. 231, "237; 102 N.E.3d 961, ,..966; 2018 Mass. LEXIS 648, ***11

[**967] As the motion judge recognized, the sole
difference between C-238] the defendant's argument on
direct review and his argument on collateral review is
the factual basis for his claim that he was a target now,
in addition to his own testimony, he offers the testimony
of the four witnesses who appeared before him during
the grand jury investigation (and whose testimony the
motion
judge
deemed
"substantial
evidence"
121 that the defendant was a target). At
establishing
the core of the defendant's instant argument are the
dual suggestions that, had the trial judge been made
aware that two witnesses (Sheff and Derochea) testified
at the grand jury before the defendant did, regarding
prior threats the defendant had made against the victim,
the trial judge (1) would have found that the defendant
was a "target'' by the time he testified, and {2) would
have granted on that basis the defendant's motion to
exclude the defendant's grand jury testimony.

r...

We are in no position to engage in such speculation.
First, the fact that the motion judge concluded, based on
this new testimony, that the defendant was a target
does not automatically establish that the trial judge
would have reached the same condusion. Both Sheff
and Oerochea's testimony involved hearsay, and this
may well have affected the ·weight that the trial judge
would have assigned their testimony when determining
whether it constituted "substantial evidenceu that the
defendant was a target when he testified.9
It was· not until after the defendant testified that the
grand jury heard from additional witnesses who
described hearing the defendant's threats firsthand.

Page 6 of 6

comment at the motion in timine hearing that the
defendant's status as a target "would change the whole
way that [he would] have to view this" issue. What the
defendant omits is the trial judge's additional comment,
made at the very outset of the hearing, that he had not
yet researched the law regarding the defendant's
position that target warnings were required. As our
above discussion makes clear, had the trial judge done
so, he would have discovered that such warnings were
not legally required at that tilTle, and thus the
Commonwealth's failure to provide the defendant with
such a warning did not preclude it from using that
testimony at trial.
Conclusion. We decline to grant the defendant a new
trial on collateral review based on an alleged violation of
a right that simply did not exist at the time of his
[**968] trial.10
We affirm the denial of the defendant's motion for a
new trial.

("•.*14] So ordered.
End ofDoai01enl

r239] Second, even assuming th~t the trial judge

would have concluded based on this additional
testimony that the defendant was ·a target, we cannot
say that he would have excluded the defendant's grand
jury testimony on that basis. The defendant focuses
extensively, and exclusively, on the . trial judge's
the rule would apply "only . .. to grand jury testimony elicited
after the issuance of the rescript in [Woods/.]• Woods I, 466
Mass. at 720. We likewise reject the defendant's related
assertion that the Woods I rule Is in fact constitutipnal, not
procedural, on the ground that it Is "based·in• the constitutional
protection agalnst self-incrimination. See id. at 720 ("This rule
is not a new constitutional rule, but rather an exercise of our
power of superintendence").
·
9 In ruling on the defendant's pretrial motion In limine, the trial
Judge rejected the defendant's argument (whlch he continues
to argue before us) that the defendant's own grand jury
testimony, and the nature of the prosecutor's questioning, also
demonstrate that he was a target. See note 3, supra cr**13) .

light of our conclusion that the Woods I rule did not hinge
on the defendant's target status, we need not address the
defendant's related arguments that the trial judge's finding that
the defendant was not a target was the product of ineffective
assistance of counsel, prosecutorial misconduct, or both.

10 tn

MYLES JACOBSON

D

COMMONWEALTH OF MASSACHUSETTS
THE TRIAL COURT
SUPERIOR COURT DEPARTMENT
Docket No. 0683CR498

PLYMOUTH, ss.
COMMONWEALTH
v.

;

i' .

THOMAS A. WOODS

\

On May 20, 2009, the defendant was found guilty (Troy, J.) of the first degree murder of
Paul Mullen. The crime was commltted in Brockton on December 2, 2005. The conviction was
'

affirmed by the Supreme Judicial Court in Commonwealth v. Woods, 466 Mass. 707 (2014).
The d~fendant has filed a motion for a new trial pursuant to rule 30(b) of the
Massachusetts Rules of Criminal Procedure. His primary claim is that his compelled grand jury
testimony was improperly used against him at trial "because (1) be was one of the targets [of the
grand jury investigation] and (2) he was not advised of his right to remain silent." Reply to

Commonwealth 's Op.position to Defendant's Motion for New Trial, p. 1 (Paper# 99) (clarifying
issue raised by motion). He contends that the trial judge's finding that he was not a target at the
time of his grand jury testimony resulted from constitutionally ineffective assistance of his trial
counsel combined with prosecutorial misconduct.
The Commonwealth has filed a written opposition to the motion in which it contends that
this court is without authqrity to consider the claim because the Supreme Judicial Court already
ruled on it. The defendant contends that the issue raised here is distinct from the issue decided
on appeal. The court held a non-evidentiary hearing on the motion on July 13, 2016.

D

FACTS
The basic facts- of the case .a re set out in Woods. supra. In addition, -the defendant has
submitted grand jury minutes of witnesses who testified before he testified at the grand jury and
an affidavit of his trial counsel.
The defendant testified before the grand jury on February I 0, 2006. Prior to that, Takisha
Turner, David Sheff, William Boyle and Nicole Derochea all testified before the grand jury.
Takisha Turner testified on December 16, 2005. She was a witness to the shooting of the
victim at a Hess gasoline station. She testified that the defendant was at the gas station at the
time of the shooting but was not the shooter.
David Sheff testified before the grand jury on January 20, 2006. He testified that two
other friends of the victim, Michael Clancy and John Tillis told him that the defendant had
threatened to shoot the victim in a voice mail the defendant left for the victim.

William Boyle .also testified on January 20, 2006. He testified that he was socializing
with the victim early on the evening when the victim was later shot and killed. He testified that
the victim and the defendant were friends.
Nicole Derocbea, the,victim's fiancee, testified before the grand jury on February 3,
2006. She testified that the victim and the defendant were always arguing. Sh,e testified that in
July of 2005, the defendant threatened to shoot the victim. She also testified that on November
1, 2005 she and the victim learned that the defendant told another friend of the victim, Sean
Flaherty, that the defendan:t again threatened to shoot the victim. Later in November, the victim
said that the defendant had threatened to shoot him a third time. In respons~. the victim and
another friend, Sean Monteiro, went to a bar and found the defendant. The victim threw the
defendant against a wall.

.

2

D

The defendant's trial counsel, Attorney John Amabile, submitted an affidavit in which he
explained that he filed ·a motion in limine at trial seeking to exclude the defendant's grand jury
testimony from evidence on grounds that the defendant was a target of the investigation at the
time he testified before the grand jury but was not advised of his privilege against selfincrimination. He further averred that at the time of the hearing he was in possession of the
transcripts of the grand jury testimony of Turner, Sheff, Boyle and Derochea but failed to
introduce them as evidence that the defendant was a target at the time he testified. Attorney
Amabile also stated that he had no strategic reas_on for failing to introduce this evidence.
ANALYSIS
The defendant contends that he is entitled to a new trial because: (1) his grand jury
testimony was improperly admitted at trial; and (2) he was deprived of the protection of the

"Humane Practice Rule.''
1. Grand Jury Testimony
The defendant first contends that the trial judge erred in finding that he was not a target
ofthe investigation at the time he was compelled to testify before the grand jury. He argues that
the error resulted from his attorney's constitutionally deficient performance in failing to
introduce the transcripts of testimony by Turner, Sheff. Boyle and Derochea, as well as
misconduct by the prosecutor in misrepresenting to the court that the defendant did not become a
target of the investigation until after he testified before the grand jury. The defendant argues that
had the court correctly determined that he was a target at the time he was compelled to testify
before the grand jury, that testimony would have been excluded at trial because he had not been
advised of his right to refuse to testify. Without his grand jury testimony, he contends, he would
not have been convicted.

3

D

The Commonwealth contends that the defendant's claim was already rejected by the
Supreme Judici_a l Court on direct appeal. The Supreme Judicial Court described the defendant' s
claim on appeal as follows:
He further argues that the trial judge erred in finding that he was not a
'target1 of the investigation when he was called to testify before the grand
jwy. and that, because he was a ' target,• he was entitled to be advised of
his right not to incriminate·himselfpursuant to the Fifth Am~dment to the
United States Constitution before he testified. In the absence of such
advice, the defendant contends that his testimony was improperly
compelled.

Woods at 708.
In this court, "Woods claims that his compelled testimony can not constitutionally be used
against him because (1) he was one of the targets and (2) be was not advised ofhis right to
remain silent." Reply to Commonwealth 's Opposition to Defendant's Motion for New Trial, p . 1
(Paper# 99) (clarifying issue raised by motion). This is the same claim as raised on appeal.

In his direct appeal, the Supreme Judicial Court rejected this claim: "We find no error in
the judge's ruling that the defendant was not a target, and that the prosecutor was not required to
advise him of his Fifth Amendment rights before eliciting his testimony/ ' Woods at 716-717.
While the defendant' s argument remains the same, he now submits evidence that was
unknown to the trial judge and the Supreme Judicial Court indicating that he was a target of the
investigation when he testified before the grand jury. The newly-submitted transcripts reveal
that at the time the defendant was compelled to appear before the grand jury the prosecutor was
aware that the defendant had threatened to shoot Mullen three times in the months leading up to

the shooting - twice within about a month of the shooting - and that Mullen had physically
attacked the defendant in retaliation just a week or two before Mullen was·shot and killed.

4

D

A '"target' of a grand jury investigation [is] 'a person as to whom the prosecutor or the

grand jury has substantial evidence linking him or her to the commission of a crime and who, in
the judgment of the prosecutor, is a putative defendant."' Woods at 716 & 719 n. 12 (2014),
quoting and adopting definition of"target" set out in United States Attorneys' Manual§ 911. 151 (2009). Evidence of the defendant's multiple, recent threats to shoot Mullen and
Mullen's retaliatory assault on the defendant constitutes "substantial evidence" linking the
defendant to the shooting. That evidence came from David Sheff, who testified pefore the grand
jury three weeks before the defendant testified and, in more detail, from Nicole Derochea, who

testified one week before the defendant. That evidence made the defendant a target or potential
target of the investigation.
Nevertheless, the fact that the defendant was a target does not change the result. The
Supreme Judicial Court's holding that the defendant was not entitled to a warning was not
dependent on the findin~ that the defendant was not a target. The Supreme Judicial Court held
that the defendant was not entitled to a warning regardless ofhis status as a target. It is not
accurate to say, as the defendant does~that ''because it accepted this lower court's ruling that
Woods was not a target, the Woods Court did not address this constitutional issue. .. ."

Defendant's Memorandum in Support ofMotion for New Trial, p. 16. The Court expressly
addressed it: "we consider for the first time the defendant's ... argument that the Commonwealth
must advise targets or potential targets of the grand jury's investigation of their right not to
incriminate themselves." Woods at 717-718.
The Supreme Judicial Court determined that a grand jury summons is "a form of
compulsion" that "ought to be ameliorated with an advisement of rights wh~re there is a
substantial likelihood that the witness may become an accused; that is, where the witness is a

5

D

'target' or is reasonably likely to become one.11 Woods at 719. The Court therefore established a
new rule that requires prosecutors to warn. targets of their privilege against self-incrimination:
Accordingly, we adopt a rule that where, at the time a person appears to
testify before a grand jmy, the prosecutor has reason to believe that the
witness is either a "target" or is likely to become one, the witness must be
advised, before testifying, that (1) he or she may refuse to answer any
question if a truthful answer would tend to incriminate the witness, and (2)
anything that he or she does say may be used against the witness in a
subsequent legal proceeding.

Woods at 719-720.
The Court decided, however, that this new rule was not required by the State or Federal
Constitutions: "This rule is not a new constitutional rule, but rather an exercise of our power of
superintendence 'to regulate the presentation of evidence in court proceedings."' Woods at 720.
Therefore, the rule applies only "prospectively." Id Since targets have no constitutional right to

a warning, the failure to give a warning to the defendant did not violate the defendant's rights
even if he was a target of the investigation.
Because the Supreme Judicial Court has already considered and rejected the defendant's
cl,a im that his grand jury testimony was improperly admitted, this court is without authority to
consider the claim. " A defendant may not raise anew in a motion for new trial a claim that has
already been considered in his direct ~ppeal." Cypher, Criminal Practice and Procedure § 42:47
(4th ed.), citing Commonwealth v. Jackson, 468 Mass. 1009, 1010 (2014).

2. Humane Practice Rule

In his motion for a new trial, the defendant also asserts that he was "deprived of a fair
opportunity for proper application of the Humane Practice Rule'' because the jury was not
informed that he was compelled by summons to testify before the grand jury and was not
informed of his right to refuse to testify.

6

D

"[I]n a capital case, issues raised in a postappeal motion for a new trial that were or could
have been raised at trial or in the direct appeal are to be measured by the substantial risk of a
miscarriage of justice standard. [The Supreme Judicial Court has] said that ' [e]rrors of this
magnitude are extraordinary events and relief is seldom granted,' Commonwealth v, Randolph,
438 Mass. 290,297 (2002), citing Commonwealth v. Amirault, 424 Mass. 618, 646-647 (1997),

and that '[s]uch errors are particularly unlikely where, as here, the defendant's conviction ... has
undergone the exacting scrutiny of plenary review under [G.L. c. 278,] § 33E. ' Commonwealth

v. Randolph, supra. See Commonwealth v. Drew, 447 Mass. 635, 638-639 (2006), cert. denied,
550 U.S. 943, (2007).'' Commonwealth v. Smith, 460 Mass. 318, 320-321 (2011) (footnote

omitted).
Since the defendant failedl to raise the issue of a violation ofthe Humane Practice Rule in
his direct appeal, the court will consider whether an error occurred at trial and, if so, whether the
error created a substantial risk of a miscarriage ofjustice.

Contrary to the defendant's assertion, the jury was informed that the defendant was
summonsed to appear before the ,grand jury. Lieutenant Richard Scott Warmington of the State
Police testified as follows on dire.ct examination:
Q.

Did you have an opportunity after to serve a grand jury subpoena
on the defendant?

A.

There was one served. I don' t recall who served it

Q.

As a result of reviewing the case and the state of the evidence?

A.

Yes.

Q.

In fact, was that summons to appear at the grand jury on February
10, 2006, served on the defendant?

A.

He appeared, yes.
7

D

Q.

Now, I'm going to ask you, sir, on February 10, 2006, after having
been served in hand, did the defendant show up at this building in
the basement?

A.

Yes, he did.

Q.

Is that where the superior court grand jury hearing room is located?

A.

Yes, it is.
Trial Tr. Vol. 6, pp. 103- 104.

As noted above, the Supreme Judicial Court ruled on the defendant's direct appeal that he

had no right to a warning regarc:Ung his privilege against self-incrimination when he appeared
before the grand jury in response to the subpoena.
Since the jury was aware that the defendant appeared before 1he grand jury because he
was served with a subpoena to appear, and since the defendant bad no right to a warning, his
claim that he was denied the benefit of the Humane Practice Rule fails.

ORDER
The defendant's motion for new trial (Paper# 96) is DENIED.
November 17, 2016

Thomas F. Mc ire, Jr~
Justi~e of the Superior Court

8

D

A

Caution

As of: October 24, 2018 2:03 PM Z

Commonwealth v. Woods
Supreme Judicial Court of Massachusetts
September 10, 2013, Argued; January 2, 2014, i;>ecided
SJC-10793

Reporter

466 Mass. 707 *; 1 N.E.3d 762 ••; 2014 Mass. LEXIS 1 ,._; 2014 WL 12355

COMMONWEALTH vs. THOMAS A. WOODS.

entitled to an advisement of his Fifth Amendment rights
before he testified; [3]-ln the future, if a prosecutor

Subsequent History: US Supreme Court certiorari
denied by Woods v. Massachusetts, 134 S. Ct. 2855,
189 L. Ed. 2d 818, ?014 U.S. LEXIS 4356 (U.S., June
23, 2014)

believed a grand jury witness was either a target of the
investigation or was likely to become one, an
advisement of the witness's rights against selfincrimination was required.

Decision reached on appeal by, Motion for new trial
denied by Commonwealth v. Woods. 2018 Mass. LEXIS
548 (Mass.. Aug. 7.2018)

Outcome
The judgment was affirmed.

Prior History: C-1] Plymouth. Indictment found and
returned in the Superior Court Department on October
5, 2006. The case was tried before by Paul E. Troy, J.
Disposition: Judgment affirmed.

Criminal Law & Procedure > Juries &
Jurors > Province of Court & Jury > •Factual Issues

Core Terms
grand jury~ interview, target, shooting, station, murder,
warning, shooter, witnesses, guilty conscience,
recorded, wearing, notice, .kill, incriminate, marijuana,
drove, shot, police station, advise, dark, thin, first
degree, interro·gation, Inferences, jacket, masked, rights,
tall,: grand jury testimony

Case Summary

LexisNexis® Headnotes

Evidence > Types of Evidence > Circumstantial
Evidence
Criminal Law & Procedure> ..• > Standards of
Review > Substantial Evidence > Sufficiency of
Evidence
Evidence > Inferences & Presumptions > Inferences

HN1~] Province of Court & Jury, Factual Issues

Overview

In reviewing the sufficiency of the evidence, the
HOLDINGS: [1 ]-Where defendant met the victim, whom standard an appellate court applies is whether, after
he had threatened to shoot, In a gas station parking lot, viewing the evidence in the light most favorable to the
and ·reft the victim alone In a vehicle, whereupon he was Commonwealth of Massachusetts, any rational trier of
fatally shot by a masked man, the evidence was fact could have found the essential elements of the
sufficient to convict defendant of first-degree murder as crime beyond a reasonable doubt. Circumstantial
a joint ·venturer. The jury co_
u ld have inferred that evidence alone may be sufficient to meet the burden of
defendant hired the shooter and lured the victim to the establishing guilt. Indeed, the Commonwealth may
parking lot; moreover, defendant's flight and inconsistent submit a case wholly on circumstantial evidence, and
statements to police indicated consciousness of guilt. inferences drawn from that evidence need only. be
[2)-The trial court properly ruled that defendant was not reasonable and possible; they need not be necessary or
a target of a grand jury's investigation and thus was not inescapable. Where conflicting inferences are possible
MYLES JACOBSON

D

466 Mass. 707, *707; 1 N.E.3d 762, "*762; 2014 Mass. LEXIS 1, -•1
from the evidence, it is for the jury to determine where
the truth lies.

Criminal Law & Procedure > Accessories > General
Overview
Criminal Law & Procedure > ... > Acts & Mental
States > Mens Rea > Knowledge
Criminal Law & Procedure > ... > Acts & Mental
States > Mens Rea > Specific Intent
Criminal Law & Procedure > ... > Standards of
Review > Substantial Evidence > Sufficiency of
Evidence

HN2.fl:.] Criminal Law & Procedure, Accessories
Where the Commonwealth of Massachusetts proceeded
on a theory of joint venture, an appellate court must
consider whether the Commonwealth established that
the defendant knowingly participated in the commission
of the crime charged, alone or with others, with the
intent required for that offense.

Criminal Law & Procedure > ... > Standards of
Review > Substantial Evidence > Sufficiency of
Evidence

HN~] Fleeing & Eluding, Consciousness of Guilt
In conjunction with other evidence, a jury may property
consider actions and statements of a defendant that
show a consciousness of guilt. While consciousness of
guilt alone is insufficient to support a guilty verdict, such
evidence may be sufficient when combined with other
probable inferences. This type of conduct Includes
making false or rnconsistent statements to police. Flight
is perhaps the classic evidence of consciousness of
guilt.

Criminal Law & Procedure > ... > Standards of
Review > Substantial Evidence > Sufficiency of
Evidence
Evidence > Types of Evidence > Circumstantial
Evidence
Evidence > Inferences & Presumptions > Inferences

/:l!:i!!.&J
Criminal Law & procedure > Accessories > General
Overview
Evidence > Types of Evidence > Circumstantial
Evidence
Criminal Law & Procedure > ... > Acts & Mental
States> Mens Rea> Specific Intent
Evidence > Inferences & Presumptions > Inferences

HN3fl:.] Criminal Law & Procedure, Accessories
A joint venture may be proved by circumstantial
evidence. The intent required for the offense may be
inferred from the defendant's knowledge of the
circumstances and subsequent participation in the
offense.

Criminal Law & Procedure > ... > Resisting
Arrest > Fleeing & Eluding > Consciousness of Guilt
Evidence > Inferences & Presumptions > Inferences

Page2of11

Evidence

Substantial

Evidence,

Sufficiency

of

In the context of a challenge to the sufficiency of the
evidence, where the Commonwealth of Massachusetts'
case was largely circumstantial, and not every inference
the ju·r y could draw was compelled, permissible
inferences need not be necessary or inescapable.

Criminal Law & Procedure > Trials > Burdens of
Proof > Prosecution

HN6T.\.J

Burdens of Proof, Prosecution

The Commonwealth of Massachusetts
disprove every possible theory of the case.

need

not

Criminal Law & Procedure > ... > Grand
Juries > Procedures > General Overview
Criminal Law & Procedure > ... > Grand
Juries > Self-Incrimination Privilege > General
overview
·

MYLES JACOBSON

D

466 Mass. 7Q7, •701; 1 N.E.3d 762, **762; 2014 Mass. LEXIS 1, •u1
HN'l(.l.] Grand Juries, Procedures

U.S. Atty's Manual § 9-11.151 defihes a "target'' of a
grand jury Investigation as a person as to whom the
prosecutor or the grand jury has substantial evidence
linking him or her to the commission of a crime and who,
in the judgment of the prosecutor:, Is a putative
defendant.

Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Conclusions of Law
Criminal Law &
Procedure > Trials > Witnesses > Credibility
Criminal Law & Procedure > ... > Standards of
Review > Clearly Erroneous Review > Findings of .
Fact
Criminal Law & Procedure > .•. > Standards of
Review> Clearly Erroneous Review > Motions to
Suppress
Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Motions to Suppress

HN§f,I.] De Novo Review, Conclusions of Law
In ·reviewing a trial judge's ruling on a motion to
suppress, an appellate court accepts the judge's
subsidiary findings of fact absent clear error, but
conducts an independent review of his ultimate findings
and conclusions of law. The judge determines the
weight and credibility of the testimony, while the
appellate court's duty Is to make an independent
determination of the correctness of the judge's
application of constitutional principles to the facts as
found.

Constitutional Law > ... > Fundamental
Rights? Procedural Due Process > SelfIncrimination Ptivilege
Criminal Law & Procedure > ... > Self-Incrimination
Privilege > Invocation by Witnesses > Warnings

HN1(!_~]
Procedural
Incrimination Privilege

Due

Process,

Self-

Because grand jury testimony is compelled, it ought to
be ameliorated with an advisement of rights where there
is a substantial likelihood that the witness may become
an accused; that is, where the witness is a "target" or is
reasonably likely to become one. Accordingly, where at
the time a person appears to testify before a grand jury,
the prosecutor has reason ·to believe that the witness is
either a ''target" or is likely to become one, the witness
must be advised, before testifying, that (1) he or she
may refuse to answer any question If a truthful answer
would tend to incriminate the witness, and (2) anything
that he or she does say may be used against the
witness in a subsequent legal proceeding. This rule is
meant to discourage the Commonwealth of
Massachusetts from identifying a person as a likely
participant in the crime under investigation, compelling
his or her appearance and testimony at the grand jury
without adequate warnings, and then using that
testimony in a criminal trial. This n.,le is not a new
constitutional rule, but rather an exercise of the
Supreme Judicial Court of Massachusetts' power of
superintendence to regulate the presentation of
evidence in court proceedings. Therefore, this rule is
only required to be applied prospectively to grand jury
testimony.

Cri~inal _Law & Procedure >Trials> Jury
lns_
t(':Jctions > Cautionary Instructions
Criminal Law & Procedure > Trials > Jury
ln~tructions > Requests to Charge

Criminal Law & Procedure > ... > Grand
Juries > Procedures > General Overview

HN11(. .] Jury Instructions, Cautionary Instructions

Criminal Law & Procedure > ... > Grand
Juries >Witnesses·> General Overview

HN#Ki.J

Page3of11

Grand Juries, Procedures

Warning a witness that he is target of a grand jury
investigation is not constitutionally required.

Under Commonwealth v. DiGlambattista, when the
prosecution Introduces evidence of a defendant's
confession or statement that is the product of a
custodial interrogation or an interrogation conducted at
a place of detention (e.g., a police station}, and there is
not at least an audiotape recording of the complete
interrogation, the defendant is entitled (on request) to a
jury instruction advising that the State of Massachusetts'

MYLES JACOBSON

D

466 Mass. 707, *707; 1 N.E.3d 762, .,.762; 2014 Mass. LEXIS 1, -1
highest court has expressed a preference that such
Interrogations be recorded wherever practicable, and
cautioning the jury that, because of the absence of any
recording of the lnterrogatlon In the case before them,
they should weigh evidence of the defendant's alleged
statement with great caution and care. However, a trial
judge need only give a DIGlambattista instruction upon
request. Where the defendant does not request such an
instruction, there Is no error in not giving one.

Headnotes/Syllabus
Headnotes

Homicide. Joint Enterprise. Evidence, Joint enterprise,
Intent. Motive, Consciousness of guilt, Testimony before
grand Jury, Voluntariness of statement. Intent. Grand
Jury. Constitutional Law, Grand Jury, Self-incrimination,
Voluntariness of statement, Assistance of counsel.
Witness, Self-incrimination. Practice, Criminal, Grand
jury proceedings, Voluntariness of statement, Request
for jury instructions, Assistance of counsel, Capital case.
Supreme Judicial Court, Superintendence of inferior
courts.
Counsel: Myles Jacobson for the defendant.
Mary Lee, Assistant District Attomey, for the
Commonwealth.
Judges: Present: Ireland, C.J., Spina, Cordy, Botsford,
Gants, Ouffly, & Lenk, JJ.
Opinion by: CORDY

Opinion
["708] C-,64) CORDY, J. In the early morning hours of
O~mber 2, 2005, the defendant, Thomas A. Woods,
and the victim, Paul Mullen, left a nightclub and agreed

to meet later to smoke marijuana. The defendant drove
to the local Hess gasoline station located in the city of
Brockton, which was a popular late-night meeting place.
When the victim telephoned the defendant to ask where
he was, the defendant told him he was at Hess, and the
victim said he would be right there. Once the victim
arrived, the defendant asked him to sit in the driver's
side seat and roll a marijuana "blunt," while he went Into
the store to buy some pizza. While the defendant made
idle conversation with the cashier inside the station, two
masked men approached the vehicle and one shot the

Page4 of 11

victim eight times, killing him almost instantly. The
defendant went to the vehicle, lald the victim on the
ground, r-21 and drove to his girl friend's house,
where he was seen talking to a man similar in
description to the shooter.1
The defendant later gave two noncustodial interviews to
police, and testified before the grand jury as a witness.
After further investigation, he was indicted and tried for
mur~r in the first degree. On May 20, 2009, the
defendant was found guilty and sentenced to life in
prison.
On appeal, the defendant argues that the evidence was
insufficient to prove his guilt as a joint venturer. He
contends that the Commonwealth's case, which relied
almost entirely on circumstantial evidence, did not
include any direct evidence that he knew the shooting
was to take place. He further argues that the trial judge
erred in finding that he was not a "target" of the
investigation when he was called to testify before the
grand jury, and that, because he was a "target,• he was
entitled to be advised of his right not to incriminate
himself pursuant to the Fifth Amendment to the United
States Constitution before he testified. In the absence of
such advice, the defendant contends that C-,65] his
testimony
was
improperly
compelled.
c-"31 Adcfrtionally, the defendant argues that the judge
erred in not including, sua spoote, an instruction
pursuant to Commonwealth v. DiGiambattista. 442
Mass. 423, 447•448, 813 N.E.2d 516 (2004), in his final
charge to the jury, where the defendant's interviews at
the police station had not been recorded. Finally, the
defendant urges this court to invoke its plenary power
under G. L c. 278. § 33E, to grant a [*709] new trial or,
alternatively, to reduce the verdict of murder in the first
degree.
We conclude that the evidence was sufficient to permit a
jury to find the defendant guilty of murder in the first
degree. We also conclude that there was no error in the
judge's determination that the defendant was not a
target of the investigation at the time of his grand jury
testimony. However, we announce a prospective rule
requiring self-incrimination warnings to those witnesses
testifying before the grand jury who fall within a class of
persons that we define as targets, or those reasonably
likely to becomf!! targets, of the investigation. Finally, we
also conclude that the defendant was not entitled to a
DiGiainbattista instruction where it was not requested at

1 Neither the shooter nor the other masked individual was ever
Identified.

MYLES JACOBSON

D

466 Mass. 707, *709; 1 N.E.3d 762, ..765; 2014 Mass. LEXIS 1, ***3
trial. Because we find no reversible error and discern
C-4) no basis to exercise our authority under G. L c.
278. § 33E, we affirm the defendant's conviction.

Pages of 11

Once there, they met [**766) the victim and his friend,
Shawn Montiero. The four went into the club and spent
the night having drinks together.

1. Background. We summarize the facts as the jury After the nightclub closed, the defendant and the victim

could have found them, in the light most favorable to the
Commonwealth. Commonwealth v. Sanna. 424 Mass.
92. 93. 674 N.E.2d 1067(1997).

a. Threats. The defendant and the vi~im were longtime
friends and street-level marijuana dealers. At some
point, however, a rift arose between them over a debt of
$3,700 that the victim owed to the defendant. In August,
2005, the defendant told a mutual friend that the victim
was "lucky he was such a good friend of [mine] because
anybody else would have been killed a long time ago for
the money he owed [me]." He later left the victim a
volcemail message, where he angrily stated, "cracker,
you better have my money, or I'm going to shoot you.11
In November, 2005, the victim's friend, Shawn Flaherty,
attempted to purchase a pound of marijuana from the
defendant for $1,300. Before the transaction took place,
the defendant told Flaherty that nPaul Mullen owed him
$3,700 for a long 1ime now and that he was upset that it
had been so long, he was extremely upset, that he
wanted to kill Paul because of it, and that he would
shoot C-5) him in the stomach." He added, in a hostile
tone, "I'll shoot that dude.'' He then took Flaherty's
money, did not give him his marijuana, and told him to
get his money from the victim.

[?1 OJ Later that month, the defendant saw Steven
Deutsch, a friend of the victim, at a bar. Deutsch spoke
to the defendant in an attempt to get Flaherty's money
back. The defendant responded by saying, "tell Mully if
he doesn't pay me my money, I'm going to shoot him in
the stomach."2

b. The shooting. On December 1, 2005, the defendant
drove the automobile owned by his girl friend, Erin
Andrews, to a bar, where he spent some time
socializing with two friends, Serena Epps and Takisha
Turner. While there, he recognized another friend, Eldon
Terry (Eldon), and the two left together and drove to
Boomers nightclub.3
2 While it appears that neither the victim nor the witnesses tOdk
any of these threats seriously, tlie jury could have concluded
that they were expressive of the defendant's anger with the
victim_and probative of his motive.

s There

was some confusion among the witnesses
C-6] whether the nightclub was called Boomers or the Safari

agreed that the victim would go home, retrieve some
marijuana, and call the defendant, and then the two
would meet and smoke it together. The defendant then
drove with Eldon to the Hess station and parked at the
rear of the right side of the building, knowing that this
area was out of the view of any security cameras. The
two exited the vehicle, and when Eldon went to use the
restroom, the defendant began chatting with women
outside the station. He went into the Hess station to buy
a cigar "blunt," where he encountered, among others,
Epps, iurner, and Tomiko Terry (Tomiko), the mother of
his child. After n·oticing Eldon and "paying him no mind,"
he continued "roaming around" the station and parking
lot, periodically checking on his vehicle.
When he returned to his vehicle to begin preparing to
smoke marijuana, the defendant received a cellular
telephone call from the victim, who agreed to meet the
defendant at the Hess station.4
The victim arrived almost immediately, and the
defendan_
t [?11) directed him to the open driver's
C--*7] side door of the vehicle. He told the victim to roll
a blunt of marijuana while he went inside. to purchase
pizza and soda for both himself and the victim. Once
inside the station, the defendant made idle conversation
with the clerk, who did not know the defendant, for ten
minutes. He did not attempt to purchase anything.
Meanwhile, as the victim sat alone In the driver's seat of
the vehicle, two masked men walked to the back of the
station. Jane Morais, an eyewitness sitting in a parked
vehicle, noticed the two men and described one of them
as a thin, "olive0 ~skinned man, wearing black shorts, a
black mask, and a black hooded sweatshirt, standing
about five feet, eight or nine inches tall. She described
the other as a thin man wearing black pants, a black
hooded sweatshirt, and a lighter jacket.
Moments later, Turner, who was standing outside the
Hess station, saw a tall, thin, masked, very dark-skinned
raJ black man walk to the front of the vehicle and
Club at the time of the incident. We refer to it as Boomers.
4 According to the defendant, the conversation went as follows:
the victim called the defendant and asked where he was. The
defendant replied, "I'm up at the Hess. I'm about to roll this
blunt." On hearing this, the victim replied, "Hold on a second.
·
I'm on the way there. Let me roll it."

MYLES JACOBSON

D

466 Mass. 7_07. *711; 1 N.E.3d 762, **766; 2014 Mass. LEXIS 1, ***8
begin shooting at the victim. The shooter was wearing a
black baseball cap, a black T-shirt, .black jeans,, and
black shoes, under what appeared to be a black
Carhartt-brand jacket She described him as
approximately six feet tall. The victim was shot in the
head, chest, and abdomen, perforating his brain, heart,
He lost consciousness almost
and
viscera.
instantaneously, and died within minutes.
Turner ran into the store, found Eldon and Epps, and
told them what had happened. She noticed the
defendant standing in front of the station, after which he
followed her inside and announced that "someone" .had
been shot. He also announced to the clerk, "somebody's
laying on the side of [my] car.• He then told Turner and
Epps, "you all need to get out of here," and, "go home."
Turner, Epps, and Eldon then got into Epps's
automobile and drove off, as the defendant told them to
"get home safely, be careful."
The defendant moved the victim's body out of the
driver's seat and onto the concrete and drove to
Andrews's house. Jessica Campbell, Andrews's cousin,
heard the r*7&7] defendant yelling for Andrews and
came to the window. She saw the defendant standing in
r**9] the driveway, talking to a 11ve foot ten inch tall
black man. He was wearing a dark hooded sweatshirt
and. dark jeans.

Page 6 of 11

preferred that [""1 OJ In-station interviews were tape
recorded, and thus they would prefer to do so. The
defendant stated that he did not want the interview to be
recorded, and signed a form indicating his waiver. Once
the second interview began, the officers told the
defendant that their investigation had revealed that
some of his initial statements to them were not true.6
The defendant explained that he .had not wanted to be
considered a "snitch,• and gave several different, yet
still exculpatory, versions of the events.
On February 10, 2006, pursuant to a summons, the
defendant testified before the grand jury. He gave
another version of the events, and further explained the
inconsistencies between his initial interview and his
grand jury testimony. His grand jury testimony was
admitted in evidence at his trial in order to Illustrate his
conflicting stories and outright lies.

2. Discussion. a. Sufficiency of the evidence. The

defendant argues that the .evidence was insufficient to
show that he acted in joint venture with the shooter. We
conclude that the Commonwealth's evidence was
sufficient to support a conviction of murder in
r*"'11] the first degree.

The standard we apply is whether, after
viewing the evidence r"713] in the light most favorable
to the Commonwealth, any rational trier of fact could
Andrews eventually went outside, and noticed the other have found the essential elements of the crime beyond
, man [*712] Walking away from the defendant while a reasonable doubt. Commonwealth v. Latimore. 378
waving at him. She described him as a thin man, Mass. 671. 677-678. 393 N.E.2d 370 (1979), quoting
standing about five feet, seven or eight inches tall,5
Jackson v. Virginia, 443 U.S. 307. 318-319, 99 S. Ct.
wearing dark jeans, a black hooded sweatshirt, and a 2781. 61 L. Ed. 2d 560 (1979). Circumstantial evidence
Carhartt-brand jacket. The defendant told Andrews that alone may be sufficient to meet the burden of
the victim had been shot and then; unbeknownst to her, establishing guilt. Commonwealth v. Nolin, 448 Mass.
discarded his blood-soal_ced clothes In her trash.
207. 215. 859 N.£.2d 843 (2007). Commonwealth v.
Ro/as. 388 Mass. 626. 629. 447 N.E.2d 4 (1983).
c. The interviews and grand jury. On December 2, 2005, Indeed, the Commonwealth may submit a case wholly
the defendant drove from Andrews's house to the police on circumstantial evidence, and Inferences drawn from
station, where he voluntarily gave an interview to police that evidence Mneed only be reasonable and possible;
as a witness. Two months later, in February, 2006, the [they] need not be necessary or inescapable."
police asked the defendant if he would be willing to Commonwealth v. Merola. 405 Mass. 529. 583. 542
submit to a second interview, to which he agreed. At the N.E.2d 249 (1989), quoting Commonwealth v. Beckett.
second interview, which took place on February 6, 2006, 373 Mass. 329. 341. 366 N.E.2d 1252 ( 1977); Where
the defendant was read the Miranda rights, although the conflicting inferences r"768] are possible from the
police did not intend to place him in custody and still evidence, "it is for the jury to determine where the truth
viewed him as a witness.
lies." Commonwealth v. Martino. 412 Mass. 267. 272.
588 N.E.2d 651 f1992), quoting Commonwealth v.
The officers explained to the defendant that the court

s Erln Andrews did not see the man's face, and was unable to
discern his skin color.

6 These Inconsistent statements are discussed rnore fully, see
part 2.a, Infra.

MYLES JACOBSON

D

466 Mass. 707, "713; 1 N.E.3d 762, ""768; 2014 Mass. LEXIS 1, .,..11
Wilbome. 382 Mass. 241. 245. 415 N.E.2d 192(1981).

Page 7 of11

showing consciousness of guilt}; Commonwealth v.
Cordle. 404 Mass, 733, 739. 741, 537 N.E2d 130
(1989) (presence at scene of crime in addition c-*14] to
evidence of ill will and consciousness of guilt sufficient);
Commonweaffh v. Anderson. 396 Mass. 306, 311-3 13,
486 N.f=.2d 19 (1985) (evidence that defendant was
alone with victim at approximate time of murder and
consciousness of guilt was sufficient to sustain verdict).

There is no question that the evidence sufficed to show
that the shooter acted with an intent to kill and
premeditation c--121 when he donned a mask and fired
eight shots into the victim as he sat defenseless in a
vehicle. See Commonwealth v. Diaz, 426 Mass. 548.
552-554, 689 N.E.2d 804 (1998) (stating requirements
for finding of murder in first degree). However, HN:f,]
where the Commonwealth proceeded on a theory of Further, the jury could have found that the defendant
joint venture, we must consider whether the met with the shooter in Andrews's driveway Immediately
Commonwealth established that the defendant after the murder. which would support a permissible
"knowingly participated In the commission of the crime inference that he was complicit in the shooting. While
charged, alone or with others, with the Intent required the descriptions of the man in the driveway v~ed
for that offense." Commonweaffh v. Zanetti. 454 Mass. somewhat, both witnesses agreed that he was a thin
449, 467-468. 910 N.E.2d 869 (2009). !:!!iD) A joint man, between five feet, seven inches and six feet tall,
venture "may be proved by circumstantial evidence.• wearing dark pants and a dark r*769] shirt. While
Commonwealth v. Bright, 463 Mass. 421, 435, 974 Andrews did not notice that he was black, she did notice
N.f=.2d 1092 /2012), quoting Commonwealth v. Braley. that he was wearing what appeared to be a Carhartt449 Mass. 316, 320. 867 N.E2d 743 (2007). The intent brand jacket. This description was sufficiently similar to
required for the offense may be inferred from "the Turner's description of the shooter as a thin black man
defendant's knowledge of the circumstances and wearing black pants, a black shirt, and a Carha~brand
subsequent participation In the offense." Commonwealth jacket,. as well as Morais's description of a thin man
v. Cohen, 412 Mass. 375. 381. 589 N.l=.2d 289 /1992), wearing dark pants, a dark shirt, and a light jacket, to
quoting Commonwealth v. Soares. 377 Mass. 461. 470. allow the jury to find that the man in the driveway
387 N.E.2d 499, cert denied, 444 U.S. 881, 100 S. Ct. participated in the shooting [*715) that had occurred
moments earlier. See Commonwealth v. Sylvia. 456
170, 62 L. £Ed. 2d 110 (1979).
Mass. 182. 190-191. 921 N.E.2d 968 /2010}
The jury could properly have considered the defendant's ["*15) (varied and erroneous descriptions of shooter
four threats to shoot the victim over a debt as evidence acceptable
where
other
evidence
supported
of his motive and intent to commit the murder. See identification). Such an Inference is certainly not
Commonwealth v. Morgan. e1147 449 Mass. 343. 348- necessary or inescapable, but it is permissible given the
348. 351. 868 N.E.2d 99 (2007). r**13] The jury also evidence presented. Beckett, 373 Mass. at 341.
could have found that the defendant arranged to meet
the victim at the Hess station, parked in an area the In addition, the defendant's actions and statements after
defendant knew to be unrecorded by surveillance, and the shooting showed a consciousness of guilt that
left the victim alone in the vehicle while the defendant supported the Commonwealth's case. HN«':f] "In
pretended to purchase pizza ·and soda for the two of conjunction with other evidence, a jury may properly
them during the ten-minute period when the victim was consider actions and statements of a defendant that
shot. An inference could properly be drawn from these show a consciousness of guilt.• Roias. 388 Mass. at
facts that the defendant was motivated to kill the victim 629. While consciousness of guilt alone Is insufficient to
by the- debt that the victim owed to him, commissioned a support a guilty verdict, such evidence may be sufficient
shooter to carry out the murder, lured the victim into a when combined with other probable Inferences. See
position where the shooting would be possible, and Commonwealth v. Best, 38·1 Mass. 472, 483. 411
attempted to construct an alibi for himself by being seen N.E.2d 442 (1980): Commonweafth v. Montecalvo, 367
chatting aimlessly with th~ clerk of the Hess station Mass. 48. 62. 323 N.E.2d 888 (1975). This type of
while · the murder took . place. See id. at 351-352 conduct includes making false or inconsistent
(sufficient evidence where defendant had motive and. statements to police. See Commonwealth v. Basch, 386
opportunity, and announced intention to kill victim). See Mass. 620. 624-625, 437 N.E.2d 200 (1982t
also Commonwealth v. Fitzpatrick. 463 Mass. 581. 594. Commonwealth v. Connors, 345 Mass. 102 , 105. 185
977 N.E.2d 505 (2012l (sufficient where Commonwealth N.E.2d 629 (1962).
produced evidence that defendant had motive and
opportunity to commit murder, along with evidence Here, the defendant's inconsistencies were many. He
MYLES JACOBSON

D

466 Mass. 707, *715; 1 N.E.3d 762, --*769; 2014 Mass. LEXIS 1, •1n115

Page 8 of 11

initially told police that he did not know anyone in the the jury were warranted in rejecting them based on the
Hess station, despite the fact that he knew several of evidence presented.
the patrons - including Tumer, r•1e1 an eyewitness to
the shooting, and Tomika, the mother of his child - in b. Self-incrimination advisement. The defendant argues
what could be seen as an attempt to hamper the police that, at the time of his testimony before the grand jury,
officers' Investigation by preventing them from locating he was a target of the investigation and the
witnesses. Commonwealth v. Porter. 384 Mass. 647, Commonwealth was thus required to advise him of his
653, 429 N.f=.2d 14 (1981) (intentionally false and Fifth Amendment right to avoid self-incriminatlon.HNiJ
misleading statements by defendant could have been ¥] The United States Attorney's Manual, § 9·11.151
found· to indicate consciousness of guilt). See (2009), defines a "target" of a grand jury investigation as
Montecalvo. 367 Mass. at 52: Commonwealth v. "a person as to whom the prosecutor or the grand jury
Spezzaro, 250 Mass. 454, 457. 146 N.E. 3 /1925). The has substantial evidence linking him or her to the
defendant also falsely told police that the victim told the commission of a crime and who, in the judgment of the
defendant to leave him in the parking lot and leave the prosecutor, is a putative defendant.• We find no
scene. This could be viewed as medically improbable in [...,19] error in the judge's ruling that the defendant was
light of the victim's wounds, and, rather, an attempt at not a target, and that the prosecutor was not ["717]
concealing the true reason for his flight See required to advise him of his Fifth Amendment rights
Commonwealth v. Garrion. 407 Mass. 263, 277. 552 before eliciting his testimony.
N.E2d 558 (1990) (»Flight is perhaps the classic
evidence of consciousness of guilt"); Commonwealth v. We first review the Ju1£9's finding that the defendant
Booker, 386 Mass, 466, 470, 436 N.E.2d 160 (1982}. was not a target. HNB['fl In reviewing a judge's ruling
He also denied that he met with anyone outside on a motion to suppress, we accept the judge's
Andrews's house, which was refuted by two witnesses. subsidiary findings of fact absent clear error, •but
He also claimed he did not have any ["716) monetary conduct an independent review of his ultimate findings
issues with the victim. In short, the defendant's and conclusions of law." Commonwealth v. Scott. 440
inconsistent statements could be seen as an attempt to Mass. 642, 646, 801 N.E.2d 233 (2004). quoting
hide witnesses and conceal his motivation and his Commonwealth v. Jimenez, 438 Mass. 213, 218, 780
N.E.2d 2 {2002). The judge determines the weight and
c-'17] actions.
credibility of the testimony, Commonwealth v. Sinforoso,
The
evidence
included
other
instances
of 434 Mass. 320, 321, 749 N.E.2d 128 (2001), while 0 our
consciousness of guilt The defendant acted as though duty Is to make an independent determination of the
he did not know the victim immediately after the correctness of the judge's application of constitutional
shooting. He discarded his bloody clothing at-Andrews's principles to the facts as found.• Commonwealth v.
house, a fact that he did not disclose to anyone, and he Mercado, 422 Mass. 367. 369, 663 N.E.2d 243 (1996).
lied to Andrews about many of the details of the
The police officers testified that the defendant had
shootlng.7
never, throughout his two interviews, been in custody or
Essentially, [**770] the Commonwealth's case is been a suspect. He voluntarily came to the police
replete with evidence of the defendant's consciousness
of guilt
While
the Commonwealth's case was largely
circumstantial, and not every Inference the jury could
draw was compelled, permissible inferences need not
~e necessary or Inescapable. Beckett, 373 Mass. at
841. While the defendant's theories of the case are
possible,8
.
defendant told Andrews that he had gone to the bar by
himself; that a woman had specifically told him, "Tommy, your
car is getting shot up"; that the victlm asked to be taken out of
the car and laid down because he was in pain; and that he had
lost his cellular telephone that night.
7 The

defendant postulates that the facts support three
Inferences: (1) the shooter was en route to another shooting
and klOed the victim on impulse [..*18) when he was
surprised at ttie sight of him; (2) the shooter Intended to kill the
defendant, a black man, and mistakenly shot the Caucasian
victim; or (S) someone at the Hess station saw the victim and
decided to shoot him. While all three scenarios are feasible,
the defendant errs in arguing that these theories were equally
as supported by the evidence as the Commonwealth's theory.
There was little to no evidence supporting these possibilities
beyond mere speculation, and HN61'FJ the Corrvnonwealth
need not disprove every possible theory of the case. See

8 The

Brown v. Commonwealth, 407 Mass. 84, 89, 551 N.E.2d 531
(1990).
414 Mass. 123, 605 N.E.2d 837 / 1993).

s.c..

MYLES JACOBSON

D

466 Mass. 707, *717; 1 N.E.3d 762, **770; 2014 Mass. LEXIS 1, ***18
station and submitted to both interviews. Further, as of
the date the defendant appeared befc>re the grand jury,
he was described by the police r:201 as "somebody
that was very interesting," becausi~ his statements
throughout the two interviews had beein inconsistent, but
he was not a ''suspect,0 for whom they had either
"probable cause" or "reasonable suspicion• to believe
was involved in the murder. 9
Based on r'771) this record, we sue no error in the
judge's finding that the defendant was not a target when
he was called to the grand jury to test11'y.
Even if the defendant were a "target," the
Commonwealth was under no obligation to warn him of
that status. United States v. Washingiro n, 431 U.S. 181,
188-190, 97 S. Ct. 1814. 52 L. Ed. 2d 238 (1977) (HN§!.
warning witness that he Is taruet of grand jury
is
not
constitutioinally
required).
investigation
Commonwealth v. D'Amour, 428 Ma~ss. 725, 743. 704
N.E.2d 1166 (1999) (same). While we do not disturb our
holding in D'Amour, we consider for the first time the
[*..,21] the
defendant's separate argument that
Commonwealth must advise targets or r118] potential
targets of the grand jury's Investigation of their right not
to incriminate themselves.

TJ

Whne the United States Supreme C(JUrt has indicated
that full Miranda warnings are not required for grand jury
witnesses, United States v. Manduiano, 425 U.S. 564,
580-581, 96 S. Ct. 1768, 48 L. Ed. 2d'212 (1976), it has
never determined "whether any .Fiftb Amendment
warnings whatever are constitutionally required for
grand jury witnesses." United States v. Pacheco-Ortiz.
889 F.2d 301. 307 (1st Cir~ 19~9). qu1oting Washington,
43·1 U.S. at 186. The United States Ciourt of Appeals for
the First Circuit has, however, "exprei>Sed 'considerable
sympathy' with the approach 'of giving at least notice
that a witness need not testify If such would incriminate
him.'n Pacheco-Orliz. supra at 30ti quoting United
States v. · Chevoor. 526 F.2d 178, 181-182 (1st Cir.
1975). cert. denied, 425 U.S. 935, 96 S. Ct. 1666, 48 L.
Ed. 2d 176 (1976) (grand jury context "gives rise to a
kind of coerciveness suggesting the wisdom of giving at
least notice that a witness need not tnstify if such would

In response to the prosecutor's lnqufry mgardlng whether the
defendant was a suspect, Officer Scott Warmington of the
Brockton police department responded: •1, think he was a little
more than a witness. But, like I said, he was giving us
information. It wasn't adding up. Was hf~ a suspect that we
believed we had probable cause 01r even reasonable
suspicion? No."

9

Page 9 of 11

incriminate him•). See United States v. Babb, 807 F.2d
272. 278 (1st. Cir. 1986) {assuming that some warning
was constitutionally mandated where defendant
r-22] was in fact warned of Fifth Amendment rights).
See also United States v. Whitaker. 619 F.2d 1142,
1150 (5th Cir. 1980) (declining to exercise supervisory
jurisdiction to require warning of Fifth Amendment
rights, but noting that "we agree that it is a better
practice to so inform a potential defendant prior to his
testimony before a grahd jury").
The United States Department of Justice requires that
grand jury "target[s]" and "subject[s]," defined as
persons "whose conduct is within the scope of the grand
jury investigation,~ United States Attorneys' Manual, at§
9·11.151, be advised of their right to avoid selfincrimination as a matter of policy.10
See Commonwealth v. Gilliard. 36 Mass. App. Ct. 183,
188. 629 N.E.2d 349 ["7191 (1994): Pacheco-Ortiz.
889 F.2d at 308. Further, courts In other States have
opted to require some variation of a rights advisement to
those who could be considered targets ot the r--r121
grand jury's investigation. See, e.g .• State v. Caperton,
276 Mo. 314, 319-320. 207 S.W. 795 (1918) ("No
person whose alleged crimes are under investigation by
a grand jury ought to be haled unwillingly before that
body and questioned as to such crimes•. .. [H]e ought
to be advised that it is his privilege not to testify
r-"23) unless he wants to do so, and that anything he
may say may be used against him"); State v. Williams,
59 N.J. 493, 503, 284 A.2d 172 (1971) (citing precedent
that target of grand jury proceeding must be advised
that he is target and of right not to incriminate himself);
State v. Cook, 11 Ohio App. 3d 237. 241, 11 Ohio B.
362. 464 N.E.2d 577 (1983) (witness is •putative
defendant if, at the time he appears before the grand
jury, the witness is potentially the focus of the
investigation and is thus subject to possible indictment,~

10 Section

9-11.151 of the United States Attorneys' Manual
requires that the prosecutor wam •subject{s]" that (1) the
grand Jury is conducting an investigation of possible violations
of Federal criminal laws: (2) they may refuse to answer any
question If a truthful answer to the ciuestion would tend to
incriminate them; (3) anything they say may be used against
them before the grand jury or in a subsequent legal
proceeding; and (4) if they have retained counsel, they may be
permitted r""24] a reasonable opportunity to step outside the
grand Jury room to consult with counsel if they so desire. As
for witnesses who are "target[s),• they must also be warned
that their conduct is being investigated for possible vlolatlor, ot
Federal criminal law. Id.

MYLES JACOBSON

D

466 Mass. 707, *719; 1 N.E.3d 762, --,72; 2014 Mass. LEXIS 1, '""'*24

and he must be warned that he has constitutional
privilege to refuse to answer any question that may
incriminate him, that statements may be used against
him, and that he may have attorney to confer With
outside grand jury room).
Toe issuance of a summons requiring a witness to
appear and give testimony before the grand jury ls a
form of compulsion.11

HN1g¥] Because grand jury testimony is compelled, it
ought to be ameliorated with an advisement of rights
where there is a substantial likelihood that the witness
may become an accused; that is, where the witness is a
"target" or is reasonably likely to become one.
Accordingly, we adopt a rule that where, at the time a
person appears to testify before a grand jury. the
prosecutor has reason to believe that the witness is
either a "target" or is likely to become one,12

Commonwealth v. DiGiambattista, 442 Mass. 423, 444445.
813
N.E.2d
516
(2004).
[***26] See
Commonweafth v. Rosario. 422 Mass. 48, 56. 661
N.E.2d 71 ( 1996) (prospectively adopting six-hour safe
harbor period for postarrest Interrogation as exercise of
superintendence authority, not new constitutional rule).
Therefore, this rule is only required to be applied
prospectively to grand jury testimony elicited after the
issuance of the rescrlpt in this case. Dagley, supra at
721.
[**773] c. Videotaped interview. The defendant argues
that the trial judge erred in not giving a DiGiambattista
instruction where the initial interview at the police station
on December 2, 2005, was unrecorded.13

This court held in DiGiambattista, 442 Mass. at 447448".

HN11('i] "[W)hen the prosecution introduces
evidence of a defendant's confession or statement
that is the product of a custodial interrogation or an
interrogation conducted at a place of detention
(e.g., a police station), and there is not at least an
audiotape recording of the complete interrogation,
the defendant is entitled (on request) to a jury
instruction advising that the State's highest court
has expressed
a
preference that such
interrogations be recorded wherever [*721)
practicable, and cautioning the jury that, because of
the absence of any recording of the interrogation
[*""27] in the case before them, they should weigh
evidel"!ce of the defendant's alleged statement with
great caution and care."

the witness must be advised, before testifying, r 120]
that (1) he or she may refuse to answer any question if
a truthful answer would tend to incriminate the witness,
and (2) anything that he or she does say may be used
against the witness in a subsequent legal proceeding.
The rule we adopt is meant to discourage the
Commonwealth from identifying a person r*25] as a
likely participant in the crime under investigation,
compelling his or her appearance and testimony at the
grand jury without adequate warnings, and then using
that testimony In a criminal trial.
This rule ts not a new constiMional rule, but rather an
exercise of our power of superintendence •to regulate
the presentation of evidence in court proceedings."
Commonwealth v. Dagley. 442 Mass. 713. 720-721, 816
N.E.2d 527 (2004), cert. denied, 544 U.S. 930, 125 S.
Ct. 1668, 161 L. Ed. 2d 494 {2005), quoting

11 At

the request of the court, and pursuant to Mass. R. A. P.
1§_J/), as amended, 386 Mass. 1247 (1982), the
Commonwealth has produced a copy of the type of grand jury
summons sent to the defendant. The summons reads: "In the
name of the Commonwealth, you are commanded to appear
before the Plymouth County Grand Jury at the Superior Court
in the County of Plymouth located at pocatlon] on [date] and
from day to day thereafter until sald action is disposed of, to
testify in the matter of Commonwealth vs. Grand Jury
Investigation. Hereof fail not, as you will answer your default
under the pains and penalties of law.•
adopt the United States Attomeys' Manual definition of
"target," as noted In the text, supra.

12 We

Page 10 of 11

The defendant may have been entitled to an instruction,
because t,e was interviewed during the course of an
investigation at ua place of detention," namely, a police
station.14
Tl')e defendant's interview on February 6, 2006, also was not
recorded, pursuant to his own refusal to consent to a
recording. The defendant does not argue that he was entitled
to a DiGiambattlsta warning based on this second, unrecorded
Interview, instead focusing only on the December 2, 2005
interview. In any event, our analysis would not change upon
consideration of the second interview.
13

14 The

situation here Is distinguished from that in
Commonwealth v. Issa. ante 1, 20 (2013), in which the
defendant was not entitled to an Instruction where he
•voluntarily and w~hout advance notice showed up at the
[police] station," and "[t]he police had not asked the defendant
to come in or be interviewed, did not know who the defendant

MYLES JACOBSON

D

466 Mass. 707, "721; 1 N.E.3d 762, *'773; 2014 Mass. LEXIS 1, --27

Page11of11

15

Id. However, a trial judge need only give a
DiGiambattista instruction upon request. Id. Where the
defendant did not request such an instruction, there was
no error.
The defendant has not claimed that his trial counsel was
ineffective, although he briefly argues that "[f]or no
apparent reason, defense counsel did not ask for a
DiGiambattista Instruction. ... [T]here could have been
no legitimate, strategic reason not to make such a
request and no reason for the judge not to give one." To
the contrary, trial counsel may have had valid reasons
not to request a DiGiambattista instruction. First, the
value of such an instruction Is lessened where, as here,
the defendant's statements, dubious as they may be,
were largely exculpatory. C-*29] See Commonwealth v.
Barbosa, 457 Mass. 773, 801-802. 933 N.E.2d 93
(2010), cert denied, 131 S. Ct. 2441, 179 L. Ed. 2d
1214 (2011) (judge's failure to give instruction not
prejudicial where defendant's comments partially
exculpatory). Further, trial counsel may have simply
opted not to bring any more attention to the defendant's
statements than necessary. In any event, the record
before us does not support a claim of ineffectiveness.
d. General Laws c. 278. § 33E. We have reviewed the
record ['722] in accordance ("774) with G. L. c. 278. §
33E, to determine whether there is any basis to set
aside or reduce the verdict of murder in the first degree,
regardless of whether such grounds were raised on
appeal. We find no such reason, and we decline to
exercise our powers under the statute.
Judgment affirmed. .
E nd ol'Documeut

was ["'«'*28) until he told them, had yet to ascertain that the
cause of death was a homicide, and did not Identify the
defendant as a suspect until after the completion of the
interview.• Here, the police knew there had been a murder!
and the defendant ·Informed them that he had been with the
victim moments before he was killed. He therefore was more
closely connected to the crime than the defendant in Issa, and
may therefore have been entitled to a DiGiambattjsta
instruction.
15This

Is true even where, as here, the defendant affirmatively
requests that the Interview not be recorded. See

Commonwealth v. Rousseau, 465 Mass. 372, 392. 990 M.E.2d
543 (2013).

MYLES JACOBSON

D

COMMONWEALTH OF MASSCHUSETTS v. THOMAS A. WOODS
Docket No. PLCR2006-00498
Plymouth, SS.

Jury Trial - Day 3
Before The Honorable Judge Paul E. Troy
May 6, 2009
Excerpt from Transcript Volume 3
Judge Troy's findings on Defendant's Motions in Limine
Transcript pages: 3-4 through 3-10

76a

present.)

THE COURT:

Good

All right.

A juror,

-late start this

got lost,

One of

had under

is the defendant's

in limine to

exclude four

he allegedly made

11

officers and one

grand jury, and t

12

motion in limine

15
16

I'm

on the two motions

10

14

little

But as I told you

going to give my
advisement.

, everyone.

police
Commonwealth's

o allow evidence of th eats to be admitted

I'll start with the motion in limine regarding the
voluntariness of the defendant's statements.
An evidentiary hearing was held before me yesterday, May 5,

17

2009, on the defendant's motion in limine to exclude his

18

alleged statements to Officer Healy and then Lieutenant

19

Warmington and Detective Clark on December 2, 2005, at the

20

Brockton police station; the statement to Lieutenant Warmington

21

and Detective Clark on December 6, 2005, at the Brockton police

22

station; and defendant's testimony before the grand jury

2-3

sitting at Brockton Superior Court on February 10, 2006.

24

At the evidentiary hearing, only Lieutenant Warmington

25

testified, and a number of documents were marked as exhibits.

77a

1

3-5
The standard on whether the defendant's alleged statements

2

must be excluded on the basis of voluntariness is, was the will

3

of the defendant overborne, such that the statements were not

4

the result of a free and voluntary act.

5

was the statement made freely and voluntarily when considering

6

the totality of circumstances.

7

Or put another way,

The.Court must make a finding in order to allow the

8

statement in that the statement was voluntary within the

9

meaning of the law beyond a reasonable doubt.

And if the Court

10

makes that finding, then the matter is still left to the jury

11

for them to determine pursuant to a humane practice

12

instruction.

13
14
15

Based upon the evidence introduced at the hearing, I make
the following findings of fact and rulings of law:
The shooting took place at the Hess gas station on Main

16

Street in Brockton in the early morning hours of December 2;

17

2005.

18

vehicle.

19

Police and the Brockton Police Department began an

20

investigation.

21

Paul Mullen was shot multiple times while sitting in a
He died as a result of the gunshot wounds.

The State

The defendant had been speaking with the decedent, Mr.

22

Mullen, at the Safari Club earlier in the evening, and they

23

subsequently met and spoke at the Hess gas station.

24

shot and killed while the defendant was inside the s�c�e

25

portion of the Hess gas station.

Mulle� ��s

The defendant :2:: ���

i��

78a

3-6
1
2

station in his car shortly after the shooting.
After a short time, the defendant voluntarily went to the.

3

Brockton police station.

4

individual who was at the Hess gas station earlier in the

5

evening and was spoken to by Officer Healy.

6

radioed to the investigating officers that he was interviewing

7

Mr. Woods and took a statement from him, which he recorded in

8

handwriting.

9

He identified himself as an

Officer Healy

I find that as to this statement of December 2, 2005, the

10

defendant came in on his own to the Brockton police station.

11

He spoke with Officer Healy who happened to be the lobby

12

officer at the time.

13

statement to Officer Healy of his own accord.

14

promises or other inducements or coercions were made by Officer

15

Healy that would affect the giving of the statement.

16

defendant gave an exculpatory statement in which he did not

17

inculpate himself in the shooting.

He was not in custody.

He gave the
No threats or

The

18

Based upon the evidence before me at the hearing, I find

19

that this statement was voluntary beyond a reasonable doubt,

20

considering the totality of circumstances.

21

Shortly thereafter, on the same day, December 2, 2005,

22

Lieutenant Warmington and Detective.Clark of the Brockton

23

police arrived b ack at the police station.

24

waited to be interviewed by them�

25

the time, he was viewed as just a witness.

The defencia�� r.ad

He was not in cus�od�.

79a

3-7
1
2

taken place a few hours earlier.
They asked him to go up to the detective bureau, which

3

meant climbing flights of stairs and navigating corridors to

4

get to the bureau.

5

defendant's breath.

6

The defendant said he had several drinks in the last few hours.

7

Detective Warmington drew the opinion that the defendant was

8

not under the influence of alcohol.

9

his speech was not slurred, he was coherent, and he negotiated

Detective Warmington smelled alcohol on the
He asked the defendant about drinking.

His eyes were not glassy,

10

his way to the detectives' office with no problem.

11

appropriately during the interview.

He acted

12

During the interview, he gave an exculpatory statement

13

which he did not suggest any involvement of himself in the

14

shooting of the decedent.

15

hour.

16

gunshot residue test and to turn over his clothing -- some

17

clothing.

The interview lasted about a half an

After the interview, the defendant remained for the

18

Based upon this evidence, I find that the statements made

19

by the defendant to Lieutenant Warmington and Detective Clark

20

were made freely and voluntarily, when considering the totality

21

of circumstances, beyond a reasonable doubt.

22_

A few. days later, on that Friday, Lieutenant Warmington and

23

Detective Clark saw the defendant exiting a barbershop.

24

pulled up to him and asked if they could speak with him some

25

more about the incident.

They

The defendant said he couldn't cc�e

80a

3-8
1

in then, but he would meet them later on.

2

the following Monday.

3

They agreed to meet

On December 6, 2005, the defendant did not appear at the

4

time he said he'd be there, so they cal�ed him and he

5

voluntarily came in to the police station on his own.

6

not in custody.

7

office.

He was

He was interviewed again in the detectives 1

8

The defendant was told that his story didn't add up, that

9

they had checked the information he _gave, and he had not told

10

them everything he knew,· and they believed he knew more.

11

advised the defendant of his Miranda rights orally and in

12

writing.

13

defendant -- and Lieutenant Warmington was convinced the

14

defendant understood his rights.

15

They asked if he wanted the interview recorded, and the

16

defendant declined and signed the declination form.

17

The defendant signed a waiver.

They

They advised the

The defendant said he did.

With respect to why he had not been more forthcoming with

18

information, the defendant said basically two things:

19

want to look like a snitch, and what I didn't tell you is not

20

really important to the investigation.

21

I didn't

The tone used by the

officers was conversational, he had a calm demeanor.

I accept

22

the testimony of Lieutenant Warmington that he did not lean or

23

try to use difficult interrogation tactics with the defendant

24

because he was concerned he might walk out.

25

The defendant understood the discussion, answered the

81a

r

3-9
1

questions appropriately.

2

the defendant.

3

interview.

4

any involvement in the incident.

5

the officers thanked him.

6

No threats or promises were made to

The defendant never asked to stop the

The defendant gave an exculpatory statement denying
At the end of the interview,

The defendant left on his own.

Based upon this evidence, I find beyond a reasonable doubt

7

that the statement was made freely and voluntarily when·

8

considering the totality of circumstances.

9

The defendant received a summons to appear before the grand
He was

10

jury that was sitting in the Brockton Superior Court.

11

one of many witnesses summonsed, including customers,

12

employees, and police officers.

13

the summons.

14

the investigation, but the police believed that he knew more

15

than he was saying and that he was not telling them everything.

16

He was treated like all other witnesses while at the grand·

17

jury.

18

And he came in in response to

At the time, he was not considered a target of

He waited in the hallway for his turn.

At some point he was asked to come to an interview room,

19

where he was interviewed by -- he was spoken to by Lieutenant

20

Warmington and Assistant District Attorney Flanagan.

21

room, he was told to tell the truth in the grand jury and that

22

he would be under oath.

23

In the

Based upon the evidence before me, the defendant did not

24

ask if he needed an attorney and he was not told he did not

25

need an attorney.

He was not a target, but they believed �ha�

82a

3-10
1

he knew more than he told and he was not being fully truthful.

2

He was not under the influence.

3

threatened or coerced.

4

like a gentleman throughout, and he was treated appropriately.

5

At the conclusion of his testimony, the defendant left the

He was not abused or

No promises were made to him.

6

grand jury area on his own.

7

jury was exculpatory.

8

incident.

He acted

His testimony before the grand

He denied any involvement in the

·9

Based upon the evidence before me, beyond a reasonable

10

doubt, I find that his statements or his testimony before the

11

grand jury was made freely and voluntarily when considering the

12

totality of the circumstances.
That's the end of my rulings on that motion.

13

regarding statements

defendant to civilian
one by the defendant

There's two dovetail
the Commonwealth.

endorsed it, See the Cour 's

The defendant's motion,
19
20

ruling on Commonwealth's moti n in limine to admit
ct evidence of this day.

My

on that motion

21
hearing, motion allowed. as to the alleged statemen s

22
23
24
25

to Shawn Flaherty

of
Deutsch.

Christopher Hobbs, and

Denied without pr
defendant to Michae

to the alleged

and Niche-le

83a

'.l. ~.
.

L

,

/

,. ,'

..•

.

:, •

,~.,1'i

COPY

COMMON1'7EALTH oF~MASsACHUSETTS ;·:
PLYN1ouiHTcouNrv GRAND Ji.JAY SUMMONS ·

\

PLYMOUTH, ss.

Cue No,

To all office~ ~thortzed to serve crtmfnal process tn tit.a Commonwealth.

GREETINGS:

,.

'IO:

·-

Th()m.u, Woods

In the name of the Commonwealth. you &rt" commanded to appear befon= the PLYMOlTIH COUNIY GRAND JURY

at [be Supertor Court tn the County of Plymouth located at:
72 Belmont Street. Brockton, MA

FRIDAY

on

tbe

3111

FEBRUARY

day or

current at

and from day to day thereafter unf::IJ. uaid aclAtu\11aposed of, to te&t!f'y In the matter of

COMMONWE~!-TH

vs.

GRAND JURY I NVF.STTr,~_TTON

Hereof fall not, as you~ answeryou1r de(ault umJer th!!! p.ul8 and pepalUea of law.
Witness, s ~ Bel Vecchio. J;SQtllJR!t a t ~ the

31st ·

RP'PIJT T() DIST.rJIQJ' 4,l"ll>~S Off7CE
• ~~-&r~

lVmVESS:

~AND

..,_.E.

.Asststant District

Attorney

THOMAS FLANAGAN

DA-009

84D

28 U.S.C. § 2254—Relevant subsections a-e are reproduced below.
§ 2254. State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment
of a State court only on the ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.
(b)

(1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to

the judgment of a State court shall not be granted unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of the State;
or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the
rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in the courts
of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be
estopped from reliance upon the requirement unless the State, through counsel, expressly
waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of
the State, within the meaning of this section, if he has the right under the law of the State to raise,
by any available procedure, the question presented.

85D

(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States;
or
(2) resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.
(e)

(1) In a proceeding instituted by an application for a writ of habeas corpus by a person in

custody pursuant to the judgment of a State court, a determination of a factual issue made by a
State court shall be presumed to be correct. The applicant shall have the burden of rebutting the
presumption of correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered
through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder
would have found the applicant guilty of the underlying offense.

86D

Myles D. Jacobson
Counsel of Record
46 Birch Hill Road
Northampton, MA 01062
(413) 531-2175
mylesdj@gmail.com
September 10, 2021

